<html>
<title> - GRANTING PERMANENT NORMAL TRADE RELATIONS (PNTR) STATUS TO CHINA: IS IT IN THE U.S. NATIONAL INTEREST?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
GRANTING PERMANENT NORMAL TRADE RELATIONS (PNTR) STATUS TO CHINA: IS IT 
                     IN THE U.S. NATIONAL INTEREST?

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, MAY 10, 2000

                               __________

                           Serial No. 106-143

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
66-818 CC                    WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
          Francis C. Record, Senior Professional Staff Member
                    Marilyn C. Owen, Staff Associate



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Christopher Cox, a Representative in Congress from 
  California.....................................................     9
The Honorable Sander M. Levin, a Representative in Congress from 
  Michigan.......................................................    12
Wei Jingsheng, Former Prisoner of Conscience in China, Chinese 
  Democracy Activist.............................................    30
Sandra J. Kristoff, Senior Vice President, New York Life 
  International, Inc.............................................    31
Mike Jendzejczyk, Washington Director, Human Rights Watch/Asia...    33
Nicholas D. Giordano, International Trade Counsel, National Pork 
  Producers Council, and on behalf of the National Association of 
  Wheat Growers..................................................    35
Steve T. McFarland, Executive Director, U.S. Commission for 
  International Religious Freedom................................    52
Rev. Daniel B. Su, Special Assistant to the President, China 
  Outreach Ministries, Inc.......................................    54

                                APPENDIX

Prepared Members' Statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    70
The Honorable Christopher Cox....................................    73
The Honorable Sander M. Levin....................................    76

Prepared Witness Statements:

Wei Jingsheng, Wei Jingsheng Foundation..........................    80
Sandra J. Kristoff...............................................    82
Mike Jendrzejczyk................................................    86
Nicholas D. Giordano.............................................    95
Steve T. McFarland...............................................   105
Rev. Daniel B. Su................................................   113

Additional materials submitted for the record:

Testimony of The China/U.S. Trade Agreement on behalf of the 
  National Association of Wheat Growers, Wheat Export Trade 
  Education Committee and U.S. Wheat Associates (Exhibit A)......   115
Statement of Paul J. Cassingham, President, American Chamber of 
  Commerce in Taipei (Exhibit B).................................   119
Letter to Paul Cassingham from Chen Shui-Bian, President-Elect, 
  Republic of China, dated May 4, 2000 (Exhibit C)...............   121
Letter from James P. Hoffa, General President, International 
  Brotherhood of Teamsters, dated May 23, 2000 (Exhibit D).......   122



GRANTING PERMANENT NORMAL TRADE RELATIONS (PNTR) STATUS TO CHINA: IS IT 
                     IN THE U.S. NATIONAL INTEREST?

                              ----------                              


                        Wednesday, May 10, 2000

                  House of Representatives,
              Committee on International Relations,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10 a.m. in room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman  Gilman. The Committee will come to order. I am 
very pleased to welcome you to our hearing this morning on 
Chinese accession to the World Trade Organization and the 
related legislation extending trade relations to China on a 
permanent basis. Certainly I don't have to remind my colleagues 
this will be one of the most important trade votes in our 106th 
Congress. Our decision, pro or con, will send a powerful 
message determining China's role in the global economy and in 
the community of nations for years to come.
    I take great pleasure in welcoming--about to arrive--
Congressman Chris Cox, from the 47th District of California, 
and Sander Levin from the 12th District of Michigan, to our 
hearing this morning. While I remain skeptical of the merits of 
the PNTR arguments, in general, and the advantages of the so-
called parallel legislation, in particular, I would like to pay 
tribute to their expertise on trade and security issues between 
our two nations and their tireless efforts to try to find 
common ground in a very polarized PNTR debate.
    We are also joined this morning by several panels of 
outstanding witnesses from the business, trade, and human 
rights communities who can bring their personal and 
professional experiences to bear on granting normal trade 
relations to China.
    I am concerned about China's poor track record of abiding 
by its existing agreements with us in a number of trade, prison 
labor and proliferation areas. We need enhanced monitoring of 
existing agreements, yet our agencies are currently underfunded 
and unequipped to meet the challenges of enforcing our current 
agreements with China.
    In the area of proliferation, a recent report by the 
Council on Foreign Relations, National Defense University and 
the Institute for Defense Analyses, cautioned that China's 
continuing support to Pakistan's weapons program has fueled 
continuing concern, and its involvement in the effort to 
reverse North Korea's nuclear weapons program has been weak. 
Yet we are told by the Administration not to be concerned, that 
their proliferation record will improve in time; but we are 
still waiting.
    We are also told that by giving permanent normal trade 
relations to the People's Republic of China, we will be 
granting benefits to American businesses without giving away 
anything to China. I strongly disagree with that viewpoint. I 
believe that supporting PNTR will give China something it 
desperately wants: relief from the spotlight on its human 
rights record. Under the current arrangement, we in the 
Congress are able to open a door into the human rights 
situation in China every year. Along with our attention comes 
the attention of the world. Our hearings and debates focus the 
cameras and tape recorders and word processors of the news 
media. We have the bully pulpit on this issue, and I am very 
concerned that once we give it away, we may never get it back.
    Are Chinese human rights and labor practices important to 
us? I believe that they are the most important in the world 
today. China has the world's largest population and one of the 
fastest growing economies. If China is allowed to trample on 
individual freedoms, then how can we tell Indonesia or Malaysia 
or Nigeria or Sudan or any other nation that they cannot do 
that?
    The Beijing regime has fought a vigorous public relations 
battle to win this philosophical argument. They have 
manipulated prisoner releases, effectively blackmailed dozens 
of countries and nearly corrupted some of our very own American 
corporations with their efforts. We must not shrink away from 
this battle of values.
    Public opinion polls show that many Americans have deep 
reservations about our policies toward China and the proposal 
to extend normal trade relations to that country. By granting 
PNTR to China, we will be sacrificing much of our ability to 
affect public opinion on Chinese human rights practices.
    I would also note that the recent report of the United 
States Commission on International Religious Freedom included a 
recommendation by nine Commissioners that the Congress not 
grant PNTR to China until substantial improvements are made in 
respect for religious freedom in that nation.
    While the nine voting members include strong free trade 
proponents and represent a wide diversity of opinion and 
religions, they are unanimous that China needs to take concrete 
steps to release all persons imprisoned for their religious 
beliefs, to ratify the International Covenant on Civil and 
Political Rights, and to take other measures to improve respect 
for religious freedom.
    Metternich, the late Austrian Foreign Minister, said that 
``public opinion is one of the most powerful weapons which, 
like religion, penetrates the most hidden corners where 
administrative measures lose their influence; to despise public 
opinion is like despising moral principals.'' So I urge my 
colleagues to think long and hard before we dispose of that 
weapon.
    Before I recognize our distinguished witnesses, I would 
like to recognize our Ranking Democratic Member, the gentleman 
from Connecticut Mr. Gejdenson, for any opening remarks he may 
have.
    Mr.  Gejdenson. Thank you, Mr. Chairman. I would like to 
commend you for holding this hearing and particularly point out 
the hard work by Representative Levin in trying to bridge what 
are some considerable issues here. We are going to have to make 
a decision on whether or not the advantages for market access 
and lower tariffs outweigh our concerns about general 
principles in our relationship with China and other countries 
on labor rights, environmental rights and human rights. We are 
going to have to decide whether, although the list of countries 
the Chairman and others listed are already members of the WTO 
and many do not respect human rights, whether China, being the 
significant player it is, a place we need to make our stand.
    It is clear that in other trade agreements, the United 
States has long ignored human rights, the situation for labor 
and environmental standards. The question for us is how do we 
best move forward on those principles that are so central to 
this democratic society.
    There are those in the Administration and in Congress who 
argue that simply by increased economic commerce, by increased 
economic activity, we will improve the situation in the lives 
of the average Chinese; that today, even with the Falun Gong 
crackdown, with the horrors at Tiananmen Square, that the 
average Chinese is freer to travel, freer to make decisions 
about where they live and where they work. But there is still a 
grave concern about a country in excess of a billion people 
where the order of the day deprives people of human rights, 
where workers have no say in their working conditions or their 
salaries, and where even groups without political agendas are 
often harassed by the government.
    This Congress for many years refused to give the Soviet 
Union any kind of favorable trade treatment because of its 
treatment of Soviet Jews, small in number and even smaller in 
the number they imprisoned. Today we are being asked to give 
permanent status to China even though they imprison thousands 
of their own citizens, have very few freedoms for people, and 
continue to run an oppressive regime that is involved in 
proliferation.
    There is not an easy answer. Human rights and the rights of 
working people are values that I think many of the Members in 
this Congress have a strong concern about. The question is, 
however, whether simply rejecting the President's proposal will 
improve their situation, whether we will have a better 
opportunity to move China in the right direction if we reject 
this PNTR today and try to get an agreement that does address 
some of those fundamentals, and whether that will be possible.
    So I thank the Chairman for holding this hearing and look 
forward to hearing from my colleagues and other witnesses.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I will be succinct 
because I want to hear from our two distinguished colleagues.
    First, the most important fact is that the approval of PNTR 
is clearly in our national interest. That is the ultimate 
bottom line.
    Second, PNTR makes it substantially less likely that 
American jobs are exported to China because of the WTO 
accession agreement. That is a secondary but very important 
element as well.
    I would say that despite the inflammatory rhetoric we are 
going to hear over the next several weeks, some of it 
irrelevant, those are the considerations that are most 
important.
    Finally, I want to state my firm belief that the approval 
of PNTR will advance human rights and democracy and the rule of 
law in the People's Republic of China. Thank you, Mr. Chairman.
    Chairman Gilman. Any other Members seeking recognition?
    Mr. Brown. Mr. Chairman?
    Chairman Gilman. Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman. This Committee is built 
upon the common desire to promote democratic ideals throughout 
the world. But as we strive to encourage democracy in 
developing nations, something is sorely amiss in our China 
policy. When the CEO's of multinational corporations lobby for 
increased trade with China, they talk about access to the 1.2 
billion potential consumers in the People's Republic of China. 
What they don't say is their real interest is 1.2 billion 
workers in China, workers whom they pay 20 cents, 30 cents, 40 
cents an hour. These CEO's will tell you that increasing trade 
with China, engaging with China will allow human rights to 
improve. Democracy, they say, flourishes with free trade. But 
as we engage with developing countries in trade and investment, 
democratic countries of the developing world are losing ground 
to authoritarian countries. Democratic nations such as India 
are losing out to more totalitarian governments such as China, 
where the people are not free and the workers do as they are 
told.
    In the post-Cold War decade, the share of developing 
country exports to the U.S. for democratic nations fell from 53 
percent in 1989 to 34 percent in 1998, a decrease of 18 
percentage points. Corporate America wants to do business with 
countries with docile work forces that earn below-poverty wages 
and are not allowed to organize to bargain collectively. In 
manufacturing goods, developing democracies' share of 
developing country exports fell 21 percentage points, from 56 
percent to 35 percent. Corporations are relocating their 
manufacturing businesses from democratic countries to more 
authoritarian governments where the workers don't talk back for 
fear of being punished. Western corporations want to invest in 
countries that have below-poverty wages, poor environmental 
standards, no worker benefits and no opportunities to bargain 
collectively. China is just perfect for that.
    As developing countries make progress toward democracy, as 
they increase worker rights and create regulations to protect 
the environment, things that we applaud every day in this 
Committee, the American business community punishes them by 
pulling its trade and investment dollars and moving them toward 
totalitarian government.
    Decisions about the economy are made in China by three 
groups of decisionmakers, the Chinese Communist Party, the 
People's Liberation Army, and Western investors. The People's 
Liberation Army, and Communist Party obviously control the 
country. The People's Liberation Army controls a significant 
amount of the businesses that export to the U.S., and Western 
investors clearly are making major economic decisions. Which of 
these three wants to empower workers? Does the Chinese 
Communist Party want the Chinese people to enjoy increased 
human rights? I don't think so. Does the People's Liberation 
Army want to close the labor camps that Wei Jingsheng and Harry 
Wu have talked about? I don't think so. Do Western investors 
want Chinese workers to be able to organize and bargain 
collectively? I don't think so.
    None of these three groups--the Communist Party of China, 
the People's Liberation Army, and Western investors--none of 
these three groups wants the current situation in China to 
improve; so when CEO's wandering the halls of Congress tell us 
that engagement with China will bring democracy to China, I 
think their real intentions are a bit suspect. I appreciate the 
efforts of my friend, Mr. Levin, and what he is trying to do, 
but the People's Republic of China has repeatedly ignored the 
United Nations High Commission for Human Rights. They ignore 
the U.S. Commission on International Religious Freedom. They 
ignore the State Department's country reports, and they have 
broken almost every agreement they have made with the United 
States. Why would the Chinese pay any attention to a 
congressional task force? Passing PNTR will only confirm that 
China's behavior will continue.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Brown.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Chairman, seven years ago when President Clinton issued 
an Executive Order linking significant progress on human rights 
with the continuance of Most Favored Nation status (MFN) for 
China, giving them a probationary year to reform, this 
Republican Congressman had nothing but praise for the 
Administration. I believe as do, I think, many other Members of 
Congress that partisanship has no place in the struggle for 
equality, fairness, and the observance of human rights. Yet in 
1994, when it became clear that human rights had actually 
deteriorated and suffered significant regression the President, 
sadly, delinked MFN trading privileges with human rights.
    Looking back in hindsight is often 20-20--the more cynical 
take on that Executive Order was that, while we thought we had 
the votes in both the House and Senate to strip MFN from China, 
the preemptive, proactive action by the President--giving them 
one more year--rendered that action in the House and the Senate 
moot. When things regressed from no significant progress to 
significant regression, the President then tore up his own 
Executive Order.
    Since then, as Chairman of the Subcommittee on 
International Operations and Human Rights, I have chaired 18 
hearings and markups focused exclusively on Chinese human 
rights abuses, and several others where China's shameless 
record was a part, and led three congressional fact-finding 
missions to China. The president of the AFL-CIO, John Sweeney, 
the courageous Harry Wu, who spent 19 years in 12 different 
forced labor camps in China, and perhaps the most well-known 
political dissident of all who will testify again today, Wei 
Jingsheng, the leader of the Democracy Wall movement, and many 
others testified before our Subcommittee regarding the horrific 
human rights abuses in China.
    Mr. Chairman, today egregious human rights abuses in China 
are commonplace, and that should inflame our conscience. With 
all due respect for my good friend from Nebraska, when we get 
impassioned about this issue, it is because people are being 
tortured each and every day. It is a part of their way of 
repression. The police and the army and the military use 
torture in a commonplace, pervasive way.
    Even the State Department's human rights reports make it 
clear China's religious, political, and labor violations have 
all increased with each passing year. Violations include, as I 
said, the pervasive use of torture by government thugs and an 
ongoing systematic crackdown on religious believers.
    As Mr. Gilman, the Chairman, just pointed out, the U.S. 
Commission on International Religious Freedom, which is 
comprised of many free traders, said this is not the year to 
convey permanent NTR on China, at a time when they are cracking 
down on Falun Gong and many other religious believers, 
Catholic, Protestant, and the Buddhists in Tibet and elsewhere. 
Forced labor in ``the Laogai,`` and coercive population control 
are getting worse, and there continues to be the stifling of 
all political dissent. You can add to that the exponential 
buildup of China's military war machine. It is not only in 
response to Taiwan, but to their own country as well.
    Mr. Chairman, Chinese workers are denied freedom of 
association and the right to organize and bargain collectively. 
China labor activists are routinely imprisoned in concentration 
camps when they speak about working conditions, corruption, 
inadequate wages, or for even speaking to Western journalists. 
The dictatorship is especially cruel to those Chinese who 
advocate for independent trade unions.
    Mr. Chairman, the deplorable state of workers' rights in 
China not only shows that Chinese men women and children are 
exploited, but that U.S. workers are severely hurt as well by 
the unfair advantage in trade by corporations who choose to 
benefit from heinous labor practices. Perhaps that is why the 
trade imbalance in China is a staggering $70 billion this year.
    Let me be clear. Human rights violations in China are 
robbing Americans of their jobs and livelihoods, and I believe 
it must stop. Let's also be clear, I and my colleagues who want 
to continue the annual review of MFN, or NTR as it is now 
called, we don't advocate isolation. What we want, what we 
demand, is principled engagement, respect for workers' rights 
and human rights.
    Let me just conclude by saying I respect those on the other 
side of this issue. I respect them deeply. They come to it from 
a different perspective. They think perhaps this may be a 
constructive way of trying to promote change. But I have to say 
in all candor I deeply resent comments made by the President of 
the United States in today's Washington Post where he says that 
lawmakers who oppose the measure are focusing on politics 
rather than its merits. That is an insult, I say, Mr. Chairman. 
Politics has nothing to do with this. This has everything to do 
with people who are suffering as a result of a dictatorship.
    As the President went on to say, virtually 100 percent of 
the people at the other end of Pennsylvania Avenue know it is 
the right decision. No, it is not 100 percent, Mr. Chairman. 
There are many of us who believe strongly and passionately that 
human rights and now, increasingly, the security issues trump 
continuing the most favored nation status or permanent NTR for 
China this year.
    Thank you, Mr. Chairman. I yield back.
    Chairman Gilman. Thank you, Mr. Smith.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    First of all, I would like to thank Chairman Gilman for the 
leadership that he has provided on this issue. He has been a 
steady hand, and he has been fair to both sides on this very 
volatile issue, and at the same time he has maintained his own 
moral and personal convictions. So I thank Chairman Gilman for 
the good job he has been doing.
    I would also like to associate myself with Mr. Brown's 
statements. Mr. Brown, I didn't find anything I could disagree 
with at all. I thought your statement was exceptionally 
thoughtful.
    Let me just say that permanent normal trade relations will 
not be any different, as far as I can see, than what we have 
had with most favored nations status over the years, just that 
we would be making it permanent, and most favored nation status 
that we had for over a decade has not been in America's 
interest. It has demonstratively been-- undercutting America's 
interest.
    Economically, what have we seen in this relationship with 
Communist China? We have seen the transfer of manufacturing 
capability; in other words, jobs going overseas under the guise 
of, we have to have this because we need it for American 
exports. We are not exporting American products over there. We 
have studied it now and know that is just not true. What is 
happening is the term ``exports,'' American exports, is being 
used to cover the fact that we are setting up factories over 
there to take advantage of slave labor, of people who have no 
rights to quit their job or to ask for a raise or to ask for 
better living conditions.
    Sending our manufacturing capabilities over to a country 
like that, is that good for the United States in the long run? 
Even in the short run it just helps some American billionaires, 
so that hasn't been good for us.
    In terms of our national security, Congressman Cox will be 
testifying in a few moments, verifying that there has been a 
heinous transfer of technology, of weapons technology, to 
Communist China that now puts us in jeopardy. This has worked 
against our national security to have this kind of relationship 
with Communist China, and morally--Mr. Smith has outlined it 
very well--morally this has been a catastrophe for the United 
States of America. We have just thrown away the moral 
foundation that we have been so proud of here in the United 
States since our Founding Fathers established this country, a 
country supposedly based on liberty and justice for all. We 
just have cast that aside so a few billionaires could make a 
quick buck. This will turn around and hurt us in the long run.
    If we continue just trying to let some very powerful 
interest groups in here, make a quick buck off just discarding 
all of the moral parts of the equation, that is not debatable. 
How many businessmen have to tell us that you don't mix 
business with moral decisions like human rights? We don't need 
to hear that, because the fact is that if we act immorally, it 
is going to hurt America in the long run, and it already has 
with this transferred technology and this transfer both of 
weapons technology and manufacturing technology. We have given 
leverage to this monstrous regime, the world's worst human 
rights abuser, a belligerent, militaristic regime.
    This is not with whom we should establish a permanent 
normal trade relationship, especially considering the past. It 
serves so much against the interest of our country and against 
the interest of human freedom.
    Thank you very much.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Mr. Martinez, my colleague, our witnesses have other 
obligations and would want to be on their way shortly, so 
please be brief.
    Mr. Martinez. Thank you, Mr. Chairman. I will be as brief 
as possible, but I am a little appalled at some of the 
statements I have heard in this debate on permanent normal 
trade relations with China. We are appalled by the human 
rights. I think we have every right to be. They have not had an 
exemplary human rights record. But they are changing, and you 
know what I have always believed, and I have seen it in the 
past years. Communism has given way to capitalism, and to be 
engaged in China in an economic way is to further that 
capitalism growth and eventually have that conquering 
communism. We saw it in East and West Germany. We saw it in 
Communist Russia. If you look around the map, I remember a 
while back looking at a map that showed in red the colors of 
the Communist countries, and that has been reduced 
dramatically, especially even in our own Western hemisphere.
    The fact is we talk about human rights. I wonder if people 
judging us on our human rights when we had slavery in this 
country would have given us any better record than these people 
are giving China today.
    I was in China right after World War II for two and a half-
years, and I saw the kinds of deprivation that the Chinese 
people suffered under the nationalist government which we 
recognized, and with whom we had great relations with and 
praised all the time. I think conditions have improved and will 
continue to improve.
    I have a tape in my office that I will share with anyone. 
An American gentleman went over to China, and he is now 
franchising paint stores. Have you ever heard of such a thing 
in a Communist country, franchises? It is a little change.
    Like I say, capitalism will conquer communism in the end. I 
think we ought to keep engaging these people. I am not 
absolutely certain we should give them permanent normal trading 
relations, but we have been doing it, like Dana Rohrabacher 
said, for the last ten years. It hasn't yet changed much, but I 
think it is just the beginning and you have to give things 
time. At this point in time I lean toward voting for it, 
because I think that the sooner that we fully engage the 
Chinese people, the sooner we will see communism give way to 
capitalism.
    I think that we are divided in the House, and in Congress 
probably in both Houses, into two kinds of people: one part the 
Henny Penny, the sky is falling, the Chinese are going to take 
all our help and build missiles and then blow us up with them; 
and the other part who are very optimistic people, who can see 
only the bright future of full trading relations with China. I 
think somewhere along the line we have got to come back to 
reality and say what is factual and what is fiction in our 
minds. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Martinez. I understand that 
Mr. Levin has an appointment downtown. Would Mr. Cox agree to 
allow him to proceed?
    Mr. Cox. By all means.
    Chairman Gilman. I look forward to hearing from our 
colleagues from both California and Michigan: Mr. Cox, the 
distinguished Chairman of our Republican Policy Committee, the 
gentleman from California; and Mr. Levin, the gentleman from 
Michigan, Ways and Means Trade Subcommittee Ranking Member. 
Both gentlemen, feel free to summarize your statements, and we 
will make certain that your full statement will be entered into 
the record.
    Mr. Levin?
    Mr. Levin. Mr. Gilman, I know I will be available for 
questions, and Mr. Cox was going to go first, so I would like 
to respect that so he can proceed. I appreciate your courtesy.
    Chairman Gilman. Mr. Cox.

  STATEMENT OF THE HON. CHRISTOPHER COX, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cox. I have already offered to let Mr. Levin go first. 
He wishes for me to go first, and one of us has to start, so I 
will be pleased to do so.
    I don't think there has been a stronger voice for PNTR with 
the People's Republic of China in the media, at least, than the 
Wall Street Journal, but in recent weeks the Wall Street 
Journal has also recounted on page one the extent of human 
rights abuse that is ongoing in the People's Republic of China. 
They describe how a 57-year-old mother was forced by the 
Government of the People's Republic of China to endure 
Communist reeducation because of her religious beliefs; how she 
was subjected to repeated shocks from a cattle prod and forced 
to endure barefoot marches through the snow; and how ultimately 
on February 21st of this year, Chen Zixiu died, while in 
custody, from a heart attack.
    I don't think anyone here, whichever side of the PNTR 
debate you find yourself on, believes that it should not be our 
priority to promote freedom and human rights around the world, 
and specifically in the People's Republic of China. I am 
confident that this Congress will refuse to renounce its belief 
that human rights are a vital part of the American character 
and any conception of American foreign policy, whether 
Republican or Democrat. That is why we are having this hearing 
today, because the legislation that has been submitted by the 
President for Congress to vote on has a fatal flaw. It goes too 
far.
    The President has told us that he is in favor of permanent 
normal trade relations (PNTR) with the People's Republic of 
China; that our annual review of those normal trade relations 
should be no more. There is a healthy debate about whether that 
is a good idea or not. But the present legislation does more 
than this. It not only ends the annual review of the trade 
status of the People's Republic of China, it not only 
establishes permanent normal trade relations, but it does 
something else separate, something else very different and 
something unsupportable. That is, it completely repeals all of 
the nontrade parts of the 25-year-old Jackson-Vanik law as they 
pertain to the People's Republic of China. There is no excuse 
for this, no justification for it. Indeed, I am quite sure 
most, if not essentially all, of the proponents of PNTR are 
unaware that the legislation was drafted in this way, that it 
contains this illegitimate rider.
    The Jackson-Vanik law has served the United States well for 
a quarter century. It covers far more than tariff levels, 
although that has been the subject of the PNTR debate. If we 
were to vote for the President's bill without considering 
separate legislation in this Committee, as you are wisely doing 
today, then not only would we establish permanent normal trade 
relations with the People's Republic of China, but we would end 
the statutory annual Presidential review of human rights 
conditions in China. We would end the opportunity of this 
Congress to either concur or dissent in whole or in part with 
that assessment; and we would yank out the non-trade teeth 
contained in that legislation, specifically, a prohibition on 
U.S. credit facilities and U.S. subsidies for human rights 
abusers.
    Those nontrade-related provisions--they are nontrade-
related because no trading partner of ours or of any nation has 
a right to subsidies from its other trading partners--ought to 
be maintained. The annual human rights review--the routine 
regular human rights review--ought to be maintained in this 
Congress. The Presidential role ought to be maintained. The 
President of the United States has not advanced a single reason 
for us to repeal those things, and so we need to simply fill 
the void that we are creating unnecessarily with this 
legislation.
    Wherever you stand in the debate on granting permanent 
normal trade relations, I hope that one principle that we can 
all agree on is that the protection of human rights is an 
essential element of America's foreign policy. That is why I am 
here today. I have proposed legislation that is appropriately 
not titled the Cox bill, not the Levin bill, not even the 
Gilman bill, Mr. Chairman, but Jackson-Vanik II, because it 
restores what we would otherwise negligently erase in current 
law. I have named it after these two Democratic ancestors of 
this Congress as well, to do them honor, because their 
legislative product has served our country so well for so long.
    Under Jackson-Vanik II, we would actually step up the 
nontrade human rights role of the Congress and the President. 
Semiannually the President would report to the Congress, not 
just annually. And semiannually, the Congress would have the 
opportunity to consider that report and to vote up or down on 
it. If the President and the Congress did not give a clean 
human rights bill of health not just to the People's Republic 
of China, but all 15 of the countries covered by Jackson-Vanik 
currently, then those countries would be ineligible for foreign 
aid and subsidies, for affirmative U.S. taxpayer benefits. 
There is no reason in the world that this feature of existing 
law should be jettisoned. If the President sought to do so for 
national security reasons and for good human rights reasons 
because, despite the problems in a given country, he thought or 
she thought--whoever the future President might be--that human 
rights progress is being made, then the President could grant a 
waiver. In fact, in Jackson-Vanik II, a modest change that is 
made, an improvement, is that the President can grant this 
waiver by Executive Order, but the Congress as under current 
Jackson-Vanik would have the opportunity to reconsider that and 
to overrule it by a joint resolution. As under current law, the 
President could then veto the joint resolution, and it would 
require two-thirds vote in the House and the Senate to 
ultimately prevail.
    That is the existing system. We ought to retain it. There 
is no reason for us to dismantle the U.S. human rights review 
in current law. Some good reasons have been advanced, whether I 
or anyone on this panel agree with all of them or not, to have 
permanent normal trade relations with the People's Republic of 
China. Not a single good reason has been advanced to dismantle 
the annual human rights review in current law.
    Seated to my right is the father of the Chinese democracy 
movement, Wei Jingsheng, who is well known certainly to all of 
the Members of this Committee and I daresay to many people 
throughout the United States of America. He served 18 years in 
prison for doing nothing more nor less, because it was 
extraordinarily important, than founding the Democracy Wall 
movement and advancing the cause of that modernization to add 
to Deng Xiaopeng's list. After serving 18 years in prison, in 
part because of the efforts of the U.S. Congress, but also in 
part because of the efforts of our counterparts all around the 
world, the Communist Government of the People's Republic of 
China finally agreed to release this man of courage from 
prison, but they didn't permit him to stop enduring punishment. 
Instead they send him into lifelong exile and so he is sitting 
next to me listening to our testimony today through a 
translator because he does not speak English. This is not his 
native country, and more than anything else he would like to be 
in China, but the latest gruesome punishment inflicted on this 
leader of the Chinese democracy movement is exile from his 
homeland of China.
    If we believe in human rights, if we share his cause, we 
cannot in good conscious cast a vote on the floor of the House 
of Representatives to repeal the U.S. human rights review that 
is a part of Jackson-Vanik and that has been American Policy 
for 25 years. So I implore my colleagues whatever else you do 
with parallel legislation--my colleague, Mr. Bereuter, and my 
colleague, Mr. Levin, have proposed some very good ideas that I 
am looking forward to hearing more about this morning--at least 
retain the parts of Jackson-Vanik that deal with human rights 
review. Don't erase them.
    One of the tragedies of where we find ourselves today is 
that we are on the precipice of taking yet another step away 
from U.S. support for human rights. President Clinton has 
already thoroughly delinked trade and human rights. There are 
intellectual arguments that have been made, I think very well, 
in support of that. But there is no argument in support of 
taking the next step, through negligence, of going beyond 
delinking trade and human rights to altogether erasing the 
nontrade human rights review. We can't do that. We can fix the 
PNTR legislation here so that those who believe in permanent 
normal trade relations might pursue their arguments, and those 
who are strongly opposed to those same trade changes can 
advance those arguments.
    Jackson-Vanik II, were it enacted today, with or without 
the PNTR legislation, would improve the law, and so I would 
urge you to take up this legislation anyway regardless of 
whether PNTR advances. Most significantly, while the annual 
Jackson-Vanik debate has come to encompass a whole panoply of 
human rights covered by the universal declaration, the statute 
itself written a quarter century ago mentions only one such 
human right, emigration. We should codify our recent pattern of 
practice, and that is what this legislation does.
    In conclusion, Mr. Chairman, I hope that everyone here will 
take seriously your responsibility, just as Members of the Ways 
and Means Committee have taken seriously their responsibility, 
to move legislation in real time so that we can have an honest 
debate on the merits when this issue comes to the floor in just 
a few weeks. I would urge you to mark up this legislation in 
Full Committee so that it is available for us to vote on in the 
House of Representatives at precisely the same time that we 
consider permanent normal trade relations. I thank you for your 
time.
    Chairman Gilman. Thank you, Mr. Cox.
    [The prepared statement of Mr. Cox appears in the 
appendix.]
    Chairman Gilman. Mr. Levin.

STATEMENT OF HON. SANDER M. LEVIN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Levin. Thank you very much, Mr. Chairman, and to all of 
your colleagues whom I have had the privilege of knowing over, 
in most cases, a number of years and whom I deeply respect. 
Deeply respect.
    The issue before us in this Congress, as we know, is not 
whether China is going to go into the WTO, because it is going 
to in almost all likelihood. The U.S. has no veto power over 
its admission into the WTO. I don't think the basic issue is 
over globalization. It is here to stay. It is here to grow. In 
my judgment, the issue is whether we are going to actively get 
involved in shaping globalization so that it widely benefits 
Americans and everyone else.
    Let me say just a couple of words on the economic aspects, 
if I might, since they have been raised, just a few words. It 
may take me beyond five minutes. If we don't grant PNTR, the 
evidence is clear we are going to lose many of the benefits of 
what we negotiated, while our competitors will gain all the 
benefits. Also, we will not be able to enforce effectively what 
we negotiated. For example, Mr. Rohrabacher, the technology 
transfer provisions, they are much stronger in our agreement 
with China than we have with virtually any other country, and 
we will be able to use the dispute settlement mechanism if the 
Chinese--the WTO dispute mechanism, if the Chinese violate 
their promise, their commitment not to insist on any more 
technology transfers that I have been deeply worried about in 
the industrial sector.
    There is also an antisurge provision in there. Mr. Bereuter 
and I issued a framework document yesterday that incorporates 
it, so for the next 12 years, if there is a surge in any 
product area that will adversely affect American workers and 
producers, there can be essentially an instantaneous response 
by the United States beyond what is presently in place vis-a-
vis any other nonmarket economy. So I think in many, many 
respects economically there are very valid arguments, provided 
we place in legislation the antisurge provision, and provided 
we put in place some strong compliance oversight mechanisms 
that Mr. Bereuter and I have contained in our proposal.
    But if I might, let me talk about the third peg of what we 
have been working on with a number of you that Mr. Bereuter and 
I described yesterday, and that relates to human rights. It is 
a third and critical peg of this, and I deeply appreciate the 
chance to join you, Mr. Cox, and Mr. Wei Jingsheng. Welcome to 
this Committee, though I am not a member of it. I am glad you 
are here.
    First of all, engagement, in my judgment, is an important 
aspect of the effort on human rights. I think we need to 
actively engage, vigorously engage in order to have some impact 
on the course of human rights in China. I also think, though, 
that we need to confront. I think that the challenge is whether 
we can combine engagement and confrontation with the Chinese.
    In this respect, I don't think the status quo is working. I 
don't think that the annual review has worked effectively. It 
is a threat that hasn't been implemented in the past. I don't 
see any plan to use it in the future, and I think it is an 
instrument that is unlikely to be utilized barring a threat to 
national security. There is a WTO exception for our taking back 
our permanent NTR if there is a threat to national security.
    So let me just focus, if I might, then, on our proposal in 
terms of human rights, and that is a Helsinki-type commission, 
a U.S. congressional executive commission that is familiar to 
many on this Committee.
    Mr. Chairman and Mr. Gejdenson, you have my full testimony, 
and I assume it will be placed in the record.
    Chairman Gilman. Without objection, the full testimony will 
be made part of the record. Thank you, Mr. Levin.
    Mr. Levin. The Helsinki Commission has demonstrated that 
benefits can be gained from bringing two branches of government 
together in a single institution to pursue a common, focused 
objective. Particularly in the area of human rights, the 
Commission's role has complemented that of the State 
Department, providing additional expertise, focused attention 
on priorities that reflect its unique institutional 
perspective. Its achievements include putting pressure on the 
former Soviet Union to release prisoners of conscience. I 
believe that a similar commission focused on China--and I agree 
so much with Mr. Cox, there must be no vacuum here--that a 
commission focused on China can achieve a comparable record of 
effective pressure. It would consist of Members of both houses 
of Congress and Presidential appointees. Its scope would have 
three pillars: human rights, labor market issues and the 
development of the rule of law. It would have a permanent 
professional staff with expertise in areas including law, 
workers' rights, economics, and Chinese politics and history, 
with a rich intelligence network that would be developed, 
including contacts with NGO's. It would report once a year to 
the President and Congress on developments in the areas within 
its jurisdictions, and importantly, it would make 
recommendations for congressional and/or executive action that 
may enforce or help bring about positive changes. It would also 
maintain a list of persons subjected to human rights abuses and 
other abuses in China.
    So it would be, first of all, a permanent concentrated 
spotlight on human rights. Second, it would serve as an 
effective base from which to mobilize bipartisan pressure on 
China in this vital area. Third, as people in China gain 
greater access to the Internet--when I was there in January for 
ten days, it was clear how dramatically that is growing--it 
would be an important point of contact between Chinese 
citizens. Also, you could provide recommendations for action by 
this Congress that were WTO-consistent.
    Recommendations for action: As I said earlier, my ten days 
in China of person-to-person exchange with people from various 
walks of life in Beijing and Hong Kong demonstrated to me the 
change in China is irreversible, but its direction is not 
inevitable. We must persistently continue to strive to impact 
that change. In my judgment, there is no realistic choice but a 
step-by-step activist approach. I remember, in closing, the 
work of so many of us when it came to the former Soviet Union, 
our visits there, our efforts to pressure them, the work of the 
Helsinki Commission. I think it was a useful device and can 
well be here.
    Chairman Gilman. Permit me to interrupt the witness. We 
will continue right through the voting, so if you'd like to go 
over and vote and come right back, I welcome that.
    Mr. Levin. In my last paragraph, Mr. Chairman, is a 
reference to President Carter's statement of yesterday, and I 
was in AID when Mr. Carter introduced human rights into foreign 
assistance. His record was way beyond anybody else's. China, he 
concluded in his statement yesterday, has still not measured up 
to the human rights and democracy standards and labor standards 
of America, but there is no doubt in my mind that a negative 
vote on this issue in the Congress will be a serious setback 
and impediment for the further democratization, freedom and 
human rights in China. That should be the major consideration 
for the nation and for the Congress.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Levin.
    [The prepared statement of Mr. Levin appears in the 
appendix.]
    Chairman Gilman. Mr. Cox has gone over to vote and will be 
right back.
    The so-called parallel legislation has drawn fire from 
those critics who argue that it would duplicate WTO procedures 
and lacks teeth in enforcement mechanisms. Is this a fair 
criticism?
    Mr. Levin. No.
    Chairman Gilman. Can you tell us why not?
    Mr. Levin. First of all, it has teeth. For example, on the 
antisurge provision, which is not right before you, it has very 
clear teeth. If there are imports that come into the United 
States that would injure our workers and producers, there could 
be a prompt and swift and meaningful action.
    Second, in my judgment, the Helsinki Commission proposal 
has teeth. Indeed, I think it will end up having more of an 
impact than our present annual review that has essentially been 
perfunctory. It will be a continuing, strong focus spotlight on 
human rights, including labor rights practices and malpractices 
within China with the power of making recommendations for 
action to this Congress. Those actions, if we so determine, 
would have teeth in them. They would have to be WTO-consistent 
and essentially nontrade-related. So this has teeth; indeed, I 
think it has more reality to it in terms of impact than the 
status quo.
    Mr. Levin. How much time?
    Chairman Gilman. Seven minutes. I am reserving my time and 
yielding to Mr. Smith for questions.
    Mr. Smith. I appreciate that, Mr. Chairman, and I will be 
very brief and continue when we get back.
    Mr. Levin, as you know, I chair the Helsinki Commission. I 
have been on the Helsinki Commission for nine of my ten terms 
in the U.S. House of Representatives. There are gaping 
differences between what you are proposing and what the 
Helsinki Final Act, signed in 1975, and the Helsinki Commission 
that was created by Congress in 1976 to monitor the three 
baskets of the Helsinki Final Act. One basic difference is that 
all of the countries that are part of the OSCE process have 
agreed to the human rights, the security, and the trade baskets 
and the documents that follow it.
    I proposed way back in the 1980's that we consider such a 
thing for China. We did a report on it, the State Department 
did, and the bottom line was how do you get China to sign such 
a thing so that there is indeed access to prisoners, so that 
there is indeed a real transparency without which it is just us 
knocking on the door--the way the ICRC, the human rights 
organizations, and our own Congress does. You and I, if we had 
tried to get into a prison to visit Wei Jingsheng when he was 
in prison, would have been shown the door. I did try to visit 
him when he was in prison.
    The other point is we already have Assistant Secretary of 
State Harold Koh of the Democracy, Human Rights and Labor 
Bureau, who does a magnificent job. The Country Reports on 
Human Rights Practices shows a very fair assessment of the 
abysmal state of human rights in China. This year's report is a 
good, accurate record of the state of affairs. I know your 
motives are pure and you want to do the right thing, but there 
will be some people who will use this creation of another 
watchdog Committee when we already have a number of such things 
as a cover, a fig leaf. That is one of the concerns I have.
    Mr. Levin. Could I respond quickly, because I may not be 
able to come back unless the Chairman orders me because I am 
supposed to go elsewhere.
    Chris, I have been so determined over these years that 
there is a vacuum, in that we handle in Congress these issues 
sporadically. There is an executive department, but it is out 
there. There is no high-level congressional executive 
commission that has as its sole responsibility to shine the 
spotlight, to go there on a regular basis, to interface with 
other countries--we do a poor job of this--that really makes it 
our first line of responsibility, that recommends concrete 
actions to the Congress of the United States. I want to tell 
you my deep faith that if we institutionalize this, if we 
concertize it, if we put a number of us on as our first line of 
responsibility to put the pressure on the Chinese, that 
combined with engagement--and if we vote down PNTR, it is going 
to undermine our engagement with the Chinese--that we will make 
more progress on human rights and labor rights than what has 
become a perfunctory, and it isn't for you. You are out there 
all the time, but it has become a perfunctory exercise. What I 
want is an institution that has a clear charge, a clear 
responsibility, a clear obligation. I deeply believe that it 
will be a more effective step than we now have.
    Mr. Smith. Just very briefly, because I know we all have to 
vote. The Helsinki Final Act was agreed to by Russia, then the 
USSR, and the other Warsaw Pact countries. But even after they 
agreed to its provisions, we still denied most favored nation 
status to the USSR. The idea was that, until there was a 
demonstrable improvement, we don't reward them with significant 
trade.
    Mr. Levin. But they granted it after that.
    Mr. Smith. Not for a very, very long time, as you know.
    Mr. Levin. But they were granted it.
    Mr. Smith. But my deep concern, I say to my good friend and 
colleague, is that this will be seen as something in lieu of 
the annual review and the pressure that can accrue from that, 
rather than something that is stand-alone.
    Mr. Levin. Let me just say I don't think the annual review 
is a useful pressure, and this will not be in lieu of. This 
will be a crystallization of what is badly needed on a day-to-
day basis.
    Mr. Smith. Would it be your view that the Human Rights 
Bureau is not doing its job then?
    Mr. Levin. It doesn't have the statute, the standing, the 
involvement of us, the resources. To do the job that we need to 
do, we need to combine engagement and confrontation, and I 
think this is the way to do it.
    Chairman Gilman. If I might interrupt, Mr. Cox is on his 
way back. I am going to ask Mr. Levin if he would be kind 
enough to return for just a few minutes of interrogation. I am 
going to ask Dr. Cooksey to take over. Mr. Cox is on his way 
back, and he can continue as soon as Mr. Cox comes back. The 
Committee stands in recess momentarily.
    [Recess.]
    Mr. Bereuter. [Presiding.] The Committee will resume its 
sitting. Chairman Gilman asked me if we would start. Mr. Cox is 
here. Perhaps Mr. Levin is coming back shortly.
    At this time we will recognize the gentleman from 
Louisiana, Dr. Cooksey for questions that he might have for 
Representative Cox. Dr. Cooksey.
    Dr. Cooksey. Congressman Cox, we welcome you to the 
International Relations Committee. We have a lot of fascinating 
debates here. We have passed great resolutions, and oftentimes 
they are ignored, but we are glad to have someone with your 
integrity and background in this area.
    I have a question. I, too, am concerned about the human 
rights abuses not just in China, but everywhere. I agree that 
no matter where you fall on this issue, whether you are for 
PNTR or for admission of them and subsequent admission of China 
to the WTO. My question I have is that last week we voted on 
the African trade bill and the CBI, which I voted for and I 
think a big majority of the House voted for. We voted for this 
at a time that there is major turmoil in Zimbabwe. They are 
shooting white farmers just because they are white and have 
land. In Sierra Leone the same people that were amputating the 
hands of children and adults with machetes a year or so ago are 
now shooting people in the streets. The very groups that are 
opposed to PNTR and the admission of China into the WTO labor 
unions, protectionists, isolationists, environmentalists, have 
not raised their voice about this issue. I used to work in east 
Africa. I was in Mozambique toward the end of that civil war, 
and I know that there were some atrocities over there. So why 
all of the very loud discussion about China, and everyone is 
ignoring the atrocities that we know are being committed in 
Africa right now, and we voted for that trade bill?
    Mr. Cox. I think some of the reason that so much trade 
attention is paid to the People's Republic of China amounts to 
the same reason that so much human rights attention is paid to 
it. It is the most populous nation on Earth. At the same time, 
I would agree with you that human rights are universal, and 
wise U.S. foreign policy would address itself to human rights 
in general and try to be evenhanded in our application of our 
policies.
    Indeed, one of the reasons that Jackson-Vanik II is 
necessary is that if we were to vote on the PNTR legislation as 
it is drafted, not only would it do the one thing that 
everybody expects it to do, and that is establish permanent 
normal trade relations with the People's Republic of China, but 
it would do something else. It would establish a special carve-
out from the nontrade parts, the human rights review of 
Jackson-Vanik. This would be done for only one of the 15 
countries that is currently covered by Jackson-Vanik.
    So you would have the irony of disparate treatment between 
the world's largest Communist country, the People's Republic of 
China on the one hand and a democracy like Ukraine, which would 
remain covered by Jackson-Vanik. You would be according special 
treatment where it is not deserved.
    In order to maintain the consistency and coherence of our 
foreign policy and of the Jackson-Vanik statute that is already 
on the books, we need to be careful not to negligently erase 
the nontrade human rights review for the PRC.
    Dr. Cooksey. Let me ask you this: Would Jackson-Vanik II, 
as you have proposed, have any impact on similar trade reviews 
or human rights reviews for African countries, because we are 
now going to really enhance the trade with Africa?
    Mr. Cox. Jackson-Vanik, as it was written, encompasses what 
was a statutory euphemism for Communist countries: ``nonmarket 
economies.'' Therefore, in the post-Soviet era Jackson-Vanik 
encompasses the following: the PRC, Russia, Armenia, Ukraine, 
Azerbaijan, Georgia, Kazakhstan, Belarus, Kyrgyzstan, Albania, 
Moldova, Tajikistan, Turkmenistan, Uzbekistan, and Vietnam. No 
African country is on that list, and our African human rights 
review, therefore, falls under a different rubric.
    Dr. Cooksey. I was in Mozambique in 1991 and 1992, and we 
were over there doing eye surgery at a hospital, and the 
Russian eye surgeons left the day before we got there because 
their contract ran out, and Mozambique was under a Communist 
government when I was there theoretically, the day before I got 
there. What is the difference? These other countries have 
disavowed--some of the countries you mentioned have disavowed.
    Mr. Cox. Precisely. That is why I think there is this irony 
that we would take the world's largest Communist country, and 
have a special carve-out for it, while leaving newly mended 
democracies covered by Jackson-Vanik under stricter human 
rights review. Just a few weeks ago when I was in Russia, I met 
with the Foreign Minister of Russia, Igor Ivanov, who very 
pointedly in his opening comments to me--we met for an hour and 
a half, I think--laid out Russian complaints that they are 
still covered by Jackson-Vanik even though it was designed for 
the Soviet Union, even though they are no longer the Soviet 
Union, even though they are now a democracy, and even though 75 
percent of the state-owned assets have been transferred into 
private hands. Now, with Chechnya ongoing, one wonders whether 
it would be viable to propose lifting Jackson-Vanik from Russia 
at this time, but surely any objective observer can see the 
strange message that we are sending when we excise the People's 
Republic of China from Jackson-Vanik coverage while leaving 
Russia, and certainly while leaving the Ukraine and other 
democracies covered by the law.
    But I take your point. As you know, there are some 
Communist countries, such as Cuba, that were not on the list I 
just read you for Jackson-Vanik coverage not because nominally 
they aren't covered, but rather because they are covered by 
even stricter trade sanctions, such as a complete embargo with 
respect to Cuba, for example.
    Dr. Cooksey. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Gilman. [Presiding.] Thank you, Dr. Cooksey.
    Mr. Berman.
    Mr. Berman. Thank you, Mr. Chairman.
    Mr. Cox, you have raised a real interesting issue of which 
I was totally unaware until I heard you talking about it a few 
days ago. I am curious about your use of the term 
``negligent.'' Is that based on your assumption that the 
Administration could never have intended to provide executive 
branch discretion regarding all the provisions of Jackson-
Vanik, and, therefore, they must never have realized the bill 
that has been introduced went far beyond the trade issues, or 
is there some other reason why you refer to it as negligence?
    Mr. Cox. I am confident that it is at least negligent. If 
it is willful, I have much greater concern. The reason I am 
willing to extend the benefit of the doubt is that there has 
been no advertisement this is the purpose of the legislation. 
All of the debate, all of my meetings with my business 
constituents have been focused on normal trade relations with 
the People's Republic of China. No business has come to me, for 
example, and said they wish to have the nontrade parts of 
Jackson-Vanik repealed or that they wish to get rid of the 
annual human rights review. Likewise, there has been no 
intellectual argument advanced by the Administration in support 
of lifting the nontrade portions of Jackson-Vanik from the PRC.
    Mr. Berman. Putting it aside, the issue whether negligence 
is a compliment compared to willful, it could well be that the 
business community you have talked to hasn't even focused on 
the other implications of the bill the Administration has 
introduced, and it might be that the Administration hasn't 
addressed the substance of those issues because there has been 
no criticism of those issues until you came along.
    Mr. Cox. That is possible.
    Mr. Berman. And that they might have a very coherent and 
rational explanation for doing that, or it could be negligence, 
I don't know. You are surmising at this point that it was not a 
conscious intent on their part.
    Mr. Cox. That is right. As a Member of the leadership in 
the Congress, I have been a participant in many discussions of 
this issue over many, many months, and I simply have not heard 
from the Administration that they are asking us to repeal not 
only the trade, but also the non-trade human rights review.
    Mr. Berman. Have you ever asked them why they did this?
    Mr. Cox. I have not had that opportunity. But our 
consideration of this legislation has been like opening the 
toys at holiday time. If you ever tried to assemble a toy for 
your little kids, you know that when all else fails, you read 
the directions. Every once in a while after we debate a 
proposal around here long enough, we go and read the 
legislation, and that is what I did.
    Mr. Berman. I am just getting to that point. Then we have 
plenty of time.
    Mr. Cox. It is not a long piece of legislation, by the way. 
It is very simple in its operation, but it has two very 
different impacts. One is to establish permanent normal trade 
relations. The other is an illegitimate rider. It repeals all 
the nontrade parts of Jackson-Vanik.
    Mr. Berman. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Berman.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I want to thank both 
of our distinguished colleagues for their presentation. In 
particular, I appreciate the opportunity to work with my 
colleague from Michigan, Sandy Levin, on our proposed draft 
framework. He and I have both made it clear that we welcome 
constructive ideas, and this is a place for us to start on 
parallel legislation.
    I know with respect to Mr. Cox, our distinguished 
colleague, his intent is to always be constructive as we look 
at various bills that relate to Asia. My comments will be 
directed to Mr. Cox because I have specific points of concern 
about his legislation. I must say that the questions are based 
upon draft legislation you were good enough to give me about 
eight or ten days ago. There may well have been changes of 
which I am unaware.
    Mr. Cox. Let me preempt at least one potential comment but 
saying that based on our discussions in our meeting, I did make 
changes to the legislation to simplify it. The legislation that 
is before the Committee at this point is, with respect to the 
nontrade sanctions, precisely the same as existing law, 
existing Jackson-Vanik. There is no other provision in the bill 
than that.
    Mr. Bereuter. Mr. Cox, I knew you were planning to do that 
so I hope my comments are based upon what you have actually 
presented. My basic conclusion is that your legislation loses 
U.S. votes for PNTR, and, given how close the vote is expected 
to be, obviously I am not interested in seeing that happen. 
Here are the concerns I would specifically mention.
    The certification standard in section 2 of the bill is much 
higher and more far-reaching than the current Jackson-Vanik 
freedom of immigration standard. Your certification, I believe, 
is a comprehensive human rights standard. Section 2 also 
requires biannual reports analyzing these wide-ranging human 
rights issues in comparison to the current Jackson-Vanik 
requirement for a biannual ``determination of full 
compliance,'' with the freedom of the annual Presidential 
waiver of full compliance with Jackson-Vanik, as in the case of 
Belarus and China. This would result in two China debates per 
year, something our colleagues are not looking forward to, I 
would guess. The Cox certification would apply to all countries 
subject to Title 4 of the Trade Act of 1974 as of January 1, 
2000. That would include countries like Kyrgyzstan, which were 
subject to the title on January 1st, but may not be at the time 
of the enactment of any bill here, that would occur because 
Kyrgyzstan and Albania are removed from Title 4 status and 
accorded full NTR in the Africa trade conference report.
    Section 3 of your bill is designed to compel debate and 
action of the Senate regardless of whatever action may or may 
not be taken in the House. The sanctions required in section 4 
are sanctions on all forms of bilateral/multilateral foreign 
aid--perhaps you can correct me if that has been changed--
including development of systems, democracy and rule of law 
programs.
    Mr. Cox. That one was changed at your request.
    Mr. Bereuter. I appreciate your effort in that respect.
    On a more positive side, section 5 provides a broad and 
fairly minimal presidential waiver standard that virtually any 
targeted country could meet.
    Section 6 uses the current Jackson-Vanik procedures as a 
basis of the proposed Jackson-Vanik II resolution consideration 
process.
    Those are my concerns. They form very important reasons why 
currently, as it's drafted, the bill loses U.S. votes. I am 
hoping if you can and if you care to, accommodate those 
concerns which you have not already taken into account.
    Thank you for listening to this, Mr. Chairman.
    Perhaps you might like to respond.
    Mr. Cox. I think I am with the gentleman in his narrative, 
but not in his conclusion. The narrative--I made quick notes--
went as follows. First you mentioned that there is a higher 
standard for giving a country a human rights clean bill of 
health. That is an explicit point in the legislation that 
coincides with the pattern and practice over the last quarter 
century. The Jackson-Vanik debate, the annual debate is not 
just about emigration rights, so the bill, Jackson-Vanik II, 
enumerates human rights such as freedom of religion, freedom of 
the press and so on that are always the subject of our debate.
    I certainly intended that. It is meant to be an explicit 
rendition of human rights, not drawn from one's left ear, but 
rather coinciding with the universal declaration of human 
rights. As you pointed out, we actually streamlined the waiver 
process. The President can waive these by Executive Order, and 
in that sense there is a balance. While the existing standard, 
at least in statute, concerns only emigration, the PRC has 
never met the standard. So it has always required a waver 
making explicit the rest of the human rights statue doesn't 
really change pattern and practice. It has the same statute. It 
has the same debate that we have always had.
    You mentioned, second, that there would be semiannual 
rather than annual debates. As I mentioned in my opening 
testimony, that is one of the upgrades in focusing on human 
rights. The reason that that is important is that we are 
admittedly and intentionally in the PNTR vote disconnecting 
trade from human rights. If there are no longer any trade 
sanctions, and all you have is the debate, then at least you 
ought to have a healthy and regular debate. But what we are 
doing in the PNTR legislation as written is erasing the debate, 
too. I think that is wholly legitimate and loses you votes. It 
certainly loses mine.
    The third thing is that----
    Mr. Bereuter. Would the gentleman yield for a question?
    Mr. Cox. Sure.
    Mr. Bereuter. We have, as you know, very little foreign 
assistance to PRC. Generally, what we have now is aimed at 
human rights and democracy. I can't imagine us wanting to 
eliminate that small amount, but that seems to be the direction 
we are trying to push the Chinese. I would like to hear a 
response if you wish.
    Mr. Cox. There is no reason to maintain that. We have 
Jackson-Vanik now. We provide that aid. All I am saying is 
leave that statute alone if it doesn't involve trade. The 
argument has been made, and I think roundly, that trade 
sanctions are not helpful to the U.S. interests. Some--many 
people perhaps on this Committee disagree with that, but the 
debate is full; and on the other hand, no argument has been 
made that nontrade sanctions or a Presidential review of human 
rights or a congressional review of that Presidential review 
and a debate about it is illegitimate. That, in fact, is quite 
constructive, and it is probably right that Beijing doesn't 
like it. They probably would just as soon we stop talking about 
human rights. If we ask the Ambassador whether, after we get 
rid of all the trade sanctions, he would like us also to get 
rid of the human rights debate, he would probably say yes, but 
that is why we need to have it.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Bereuter. He probably would. That is why the Levin-
Bereuter proposal is there.
    Mr. Cox. We need to have it in Congress. I don't think we 
want to send the PRC a signal that we are repealing the 
existing procedures for monitoring human rights abuse.
    Chairman Gilman. Mr. Pomeroy.
    Mr.  Pomeroy. I want to pursue the questions asked by 
Congressman Bereuter, and I want to begin by commending 
Congressman Bereuter and Congressman Levin for their bipartisan 
effort to articulate an ongoing concern of the United States on 
human rights and workers' rights even as we move PNTR forward.
    We are very close to a vote, and the vote is going to be 
close, and I think that the proposal you have advanced, Mr. 
Cox, is quite interesting, but I worry just as a matter of 
almost process and politics if we start to have a mushrooming 
of these other alternatives that address human rights even as 
we move PNTR forward, it is going to at least confuse and at 
worst divide the intention to address that concern in a manner 
that still captures support for PNTR.
    Have you tried to work with Congressman Bereuter and Levin 
and meld your two proposals?
    Mr.  Cox. Indeed, the reason that I am the lead-off witness 
at this hearing is I came to the Committee of jurisdiction as a 
Member of the leadership of the House with a proposal on which 
I had previously met with Chairman of the Subcommittee, Mr. 
Bereuter, and I fully intend to be constructive in doing so.
    Wei Jingsheng, who is seated next to me, has written a 
letter, which I think now is public, that complained about the 
inadequacy of the brand new process, the completely alternative 
process that is being suggested in Levin-Bereuter. He said that 
a review outside of the Congress, outside of the current 
process of Jackson-Vanik, is not enough; and so I am here and 
he is here on this panel simply to ask us to do what a doctor 
would do--first do no harm. Our object is to enact permanent 
normal trade relations; let's do that. But let's not 
negligently, as I put it earlier, do more than that.
    You have to remember that the very vote that we are being 
asked to cast on the bill, as reported from Ways and Means, 
will do two things: It will not only give us permanent normal 
trade relations, but it will also erase the nontrade parts of 
Jackson-Vanik. We don't have to do that. There is no reason to 
do that.
    Mr.  Pomeroy. On that point, Mr. Cox, you would be more 
persuasive to me had you discussed with the Administration 
whether or not it was negligent omission or whether or not it 
was essentially tied to the----
    Mr.  Cox. I don't think it much matters.
    Mr.  Pomeroy [continuing]. The initiative. You indicated to 
us you have yet to have the dialogue with the Administration on 
the----
    Mr.  Cox. The Administration has yet to advance a single 
argument in favor of repealing Jackson-Vanik. I think Mr. 
Berman put his finger on it. Even the business community hasn't 
focused on this. It may be that somebody is trying to pull a 
fast one here. I don't know. But in any case, there isn't a 
good reason for it. I don't think that Democrats or Republicans 
agree with it. As I said earlier, I don't have any objection 
to----
    Mr.  Pomeroy. You have told us you haven't had the 
discussion, and so you assert that there is no good reason for 
it. You don't know. I mean, it seems to me that Jackson-Vanik, 
I would be the first to say I have but a layman's understanding 
of it. It was passed to basically address concern about the 
Soviet Union stopping emigration of Soviet Jews. That was the 
purpose for Jackson-Vanik. Now, the so-called Jackson-Vanik II 
idea that you are advancing, and I haven't seen the language--I 
guess the Minority staff got some language yesterday--does seem 
to be a brand new application. You are using an old name of two 
revered legislators, but a brand new application of something 
devised for quite a different purpose.
    Mr.  Cox. I would point out to the gentleman that as a 
participant, as he has been, in the Jackson-Vanik debates on an 
annual basis, he knows that in our pattern and practice in 
Congress over the last quarter century, the Jackson-Vanik 
debate has come to encompass human rights, all of them. If one 
reads the record of last year's debate, the year before and so 
on, you will see full discussion of freedom of religion, 
freedom to join a trade union, all of these things covered in 
our annual debate. All that we are doing in this legislation is 
codifying current practice.
    If the Committee found that objectionable--this is a 
Committee of jurisdiction. I hope you mark up the legislation. 
If for some reason you wanted to leave it precisely the same as 
exists in Jackson-Vanik, and focus only on emigration, frankly 
that would be acceptable to me. I don't think that this 
represents the best work that Congress could do, because while 
you are at it, you might as well make it conform to what we 
know Congress is doing.
    Mr.  Pomeroy. This looks--and I just basically offer this 
as an observation, I am going to vote for the PNTR proposition 
for China, but I am very supportive of the effort Congressman 
Bereuter and Levin to identify these other issues and 
constructively find a way to respond to them. I find that your 
initiative, while maybe--obviously well-intended, it occurs in 
a process that I think complicates the effort to achieve both 
ends, PNTR and codified means to effectively monitor human 
rights and worker rights issues in China.
    Mr.  Cox. I have to say the gentleman must misunderstand 
the proposal because they are perfectly complementary. Indeed, 
Jackson-Vanik II is perfectly complementary to the Bereuter-
Levin initiative. The only question is whether or not, if all 
you did were Bereuter-Levin, when would you be satisfied that 
you aren't worse off than you started. On the nontrade human 
rights side, I just want us to do no damage, no unnecessary 
injury to the Jackson-Vanik process.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Rohrabacher.
    Mr.  Rohrabacher. First of all, I would like to 
congratulate Mr. Cox. For those who don't know, Chris worked 
for several years in the Reagan White House during the height 
of the Cold War and understands fully how different strategies 
have an impact on human freedom. The first question I would 
like to ask Mr. Cox, with your experience in the White House 
and since in Congress, was it the trade expansion that 
President Reagan focused on with the Soviet Union that helped 
bring down that tyranny and end that threat to the United 
States and the rest of the world, or did Ronald Reagan insist 
on Jackson-Vanik and other human rights measures and strategies 
in order to accomplish that great end that we enjoy today?
    Mr.  Cox. I think the gentleman puts his finger on an 
important fact of history, and that is that we have a lot of 
experience with bringing down Communist governments through the 
use of sanctions and bringing down other noxious governments, 
such as the apartheid government in South Africa. We have no 
experience in the history of the 20th century ever bringing 
down a Communist government through trade.
    It is not to say it cannot work, and indeed not every 
Communist government is the same. It is always pointed out 
early and often in this debate about the People's Republic of 
China that Chinese communism or, as Jiang Zemin has wont to put 
it, ``Socialism with Chinese characteristics,'' is different 
than the Russian variety of it that started in 1917. Our 
policies, certainly under President Reagan and under succeeding 
Presidents toward the Communist Government of the People's 
Republic of China, have been different than they were toward 
these other Communist governments.
    Having set out in a direction, I think a lot of people want 
to see if we cannot make it work, but I wouldn't rely on some 
economic determinism here to guarantee our results. As 
President Reagan said in a different context, in this ideology 
of advancing democracy and political rights through advancing 
trade, we should trust, but we should also verify. We should 
have some other means; at a minimum we ought to talk about 
human rights.
    What has pained me in watching the Clinton Administration 
implementation of our China policy is that while they have put 
a very healthy emphasis on trade, they have not put a 
concomitant emphasis on human rights. When the President took 
that extended visit to the People's Republic of China, the 
founders of the Chinese Democratic Party were not yet in 
prison. He could have met with them, as President Reagan 
certainly would have in the Soviet Union under similar 
circumstances. He did not do that.
    Sometimes just talking about human rights when you have the 
world's media at your disposal or when you are in the Congress 
of the United States can accomplish a great deal, and I know 
that Wei Jingsheng, who is sitting next to me, is very grateful 
for the efforts of Democrats and Republicans in this Congress 
to attempt to secure his release through public diplomacy. 
Perhaps if he had not been nominated for the Nobel Peace Prize, 
perhaps if we had not kept such an intense glare of publicity 
on his imprisonment which caused the Communist government in 
Beijing to squirm, he might still be imprisoned. As it is, he 
is now in exile. That is somewhat better, but we would still 
like freedom for Wei Jingsheng.
    Mr. Rohrabacher. This proposal that if we keep expanding 
American economic trade and ties with Communist China, that it 
will result in greater freedom and respect for human rights, 
runs totally contrary to the strategy that Ronald Reagan used 
in order to bring about the greatest expansion of human freedom 
in the history of mankind.
    Mr. Cox. That is right, but it doesn't run totally contrary 
to the strategy that President Reagan used with the PRC. Since 
President Reagan is not here for us to inquire, the only 
thing--since you and I worked in the White House, we know a lot 
of people who made the policy--the only thing that we can ask 
is whether or not, with the collapse of the Soviet empire, we 
might have reoriented our China policy.
    Mr. Levin. Would you give me 30 seconds?
    Mr. Rohrabacher. I will, but just let me make one point 
first, and that is having also worked with Ronald Reagan and 
written some of the speeches that he gave when he went to 
China, let me note that when President Reagan dealt with 
Communist China, there was an expanding democracy movement at 
that time, and that President Reagan was fully aware of that 
and fully aware that it was becoming--that there was an 
alternative building, and that China was going in the right 
direction, and while it was going in the right direction, he 
had those policies. Yes, I would be happy to yield.
    Mr. Levin. If I might, just give me 30 seconds or 45 
seconds.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Rohrabacher. I would ask unanimous consent for an 
additional one minute.
    Chairman Gilman. Without objection.
    Mr. Levin. I appreciate it, Mr. Chairman.
    I urge that we not put this in either/or frames of 
reference. It seems to me that expanded trade by itself is not 
a magic wand. I think it will need to be reinforced, to put it 
mildly, by pressures on China in terms of human rights and 
worker rights; but, a lot of leadership was at the White House 
yesterday, including some from the Reagan Administration, who 
do believe that economic freedom can have some impact, though I 
don't think by itself it is enough in terms of developing 
democratic freedoms. For example, the breakup of the state-
owned enterprises in China, which I think is a good idea, there 
is a very good argument that as you break up the state-owned 
enterprises, that you are going to foster the opportunities for 
more freedom because the state-owned enterprises essentially 
are controlling the lives of people not only in terms of the 
factory, but in terms of housing, in terms of how they get 
help, and there is no chance for a free trade labor movement 
with state-owned enterprises. The more that changes, I do think 
it can help lead to democratic processes provided there are 
other important external pressures and internal pressures 
leading in that direction. It is not really either/or.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    I will be voting ``no'' on this agreement, and I am very 
concerned that those of us who are voting ``no'' are 
characterized as isolationists, as people who do not want to 
let the sun shine into China, and that simply is not true. As a 
matter of fact, it is the exact opposite of what is true. Trade 
with China is going to continue because the Chinese need it to 
continue. They send 42 percent of their exports to the United 
States. We send less than one percent of our exports to China. 
That is unlikely to change whether we vote for or against this 
agreement in any significant way. There may be some--if we vote 
against this agreement--some tiny, occasional interruptions in 
Chinese exports to the United States, but those exports will 
pretty much continue.
    We do not wish to isolate China. There is not going to be 
an end of information exchange to China. Not a single Internet-
capable computer will disappear from China if this agreement 
goes down, but if the agreement is accepted, then we lose any 
opportunity to have any economic effect on what China does 
either to open their markets, deal with nuclear proliferation, 
or deal with human rights.
    We have talked about economic freedom, but the only 
economic freedom that this deal provides is it allows people to 
work in near slave conditions, free in the knowledge that their 
exports will come to the United States freely without the 
slightest risk of impediment. If that is economic freedom, then 
I think it is insufficient to bring political freedom to China.
    Mr. Cox, I want to applaud you for going as far as you do 
in Jackson-Vanik II. When we dealt with the world's other great 
nonmarket economy, we insisted on human rights for a group of 
people. I am and was very concerned about the Soviet Jews. We 
should certainly not want to do less with regard to the 
Christians and Muslims of China, with regard to those who are 
struggling for autonomy in Tibet, et cetera. So for us to sweep 
aside any part of Jackson-Vanik as an undisclosed part of this 
trade agreement seems absurd.
    But I would go further and say that while I agree with you 
that just talking about human rights itself is important, let's 
say China did something outrageous. Let's say 100,000 Buddhists 
monks and nuns were killed in Tibet or a crackdown that made 
Tiananmen--that exceeded Tiananmen Square. If we went with this 
deal, could the United States do anything that would cost the 
government in Beijing a penny in order to retaliate for such 
future outrages that might occur?
    Mr. Cox. I think the argument the gentleman is making is an 
argument in support of his vote against PNTR. The arguments on 
the other side, I am sure, the gentleman is very familiar with. 
I just wish to add that the reason I am here today is not that 
debate. That debate is taking place in this Committee and also 
in the Ways and Means Committee. I am here to focus attention 
on the other half of what this PNTR vote is doing, because I 
think most everybody is focused on the trade part, and they are 
not focused on the erasure of the annual human rights review.
    Finally, I would say while supporters of PNTR ought to vote 
for this because they want to advance trade, but not retard 
human rights, opponents of PNTR should support this because if 
PNTR does not pass, Jackson-Vanik II will improve the existing 
process. First, it codifies the full panoply of human rights 
that are subject of our regular discussions in Congress, and 
second, it creates it a twice-a-year review.
    Mr. Levin. Could I briefly respond?
    Mr. Sherman. Briefly, because I have limited time.
    Mr. Levin. First of all, in your comment about exports from 
China without the slightest risk, I just want to urge that 
there was negotiated an antisurge provision that is, as I said 
earlier, an extremely important one, which our proposal, Mr. 
Bereuter's and mine and others', would place into law so that 
if there were a threat of serious injury to any American 
worker/producer, we would have a mechanism considerably beyond 
anything available.
    Second, in terms of whether there anything that we could do 
in a circumstance that you suggest, the answer is there are 
nontrade institutions through which China has now been 
receiving very considerable sums which would be subject to 
action by the United States and other countries.
    Chairman Gilman. The, gentleman's time has expired.
    Mr. Ballenger.
    Mr. Ballenger. Thank you, Mr. Chairman.
    Congressman Levin, just one question. You brought up the 
idea of the breakup of businesses in China. It has come to my 
attention, and I don't know whether this is in the agreement, 
in the PNTR or the World Trade Organization, but that no 
sanctions are allowed in some agreement--which one I don't 
know--no sanctions are allowed in cases where businesses are 
owned or managed by governments. This has come to me from one 
of my companies back home that the basic idea is there is an 
opening about a mile wide in there, considering that 
substantial pockets of the Chinese economy are government-owned 
businesses. Am I mistaken in this, or do you have any knowledge 
about what I am speaking?
    Mr. Levin. I don't think that is correct. The Chinese have 
made certain commitments, and those commitments are subject to 
the dispute settlement mechanism of the WTO, and I do not think 
there is a blanket exemption for anybody.
    Mr. Ballenger. That is a pretty broad statement. I just 
wondered if there is some exemption that you might----
    Mr. Levin. I don't know of one. I would be glad to take a 
look at it, but I don't believe that that statement that you 
recited is correct.
    Mr. Ballenger. All I know is there was a commitment, a 
verbal commitment by a trade representative, that they would 
try to do something about this gaping hole in the agreement. So 
it appears to me there must be something there, and I would 
just----
    Mr. Levin. I would be glad to follow that up and let you 
know.
    Mr. Ballenger. I appreciate it very much.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Ballenger.
    Mr. Faleomavaega. This will be our last inquiry of the 
panel.
    Mr. Faleomavaega. My personal welcome to the colleagues, 
Mr. Cox and Mr. Levin, for their presence on the Committee. I 
do want to commend Mr. Levin and Mr. Bereuter for sincerely 
trying to find a solution to this very serious problem in 
dealing with China, and probably no two Members can understand 
and appreciate more the concerns expressed by my good friend 
from California concerning the Jackson-Vanik provision as it is 
currently applied.
    I would like to ask the gentleman from Nebraska and Mr. 
Levin from Michigan, in your packaging this proposal as it 
addresses the human rights theme, the labor problems and 
environmental issues, how did you address the Jackson-Vanik 
concerns as has been expressed by our good friend from 
California, Mr. Cox? I am sure that you have taken this into 
consideration. Are we kind of putting a double-barrel effort 
here? We have got the Jackson-Vanik to go with. Now you are 
adding these provisions--addressing these very serious issues 
that many Members have expressed concern about. I just wanted 
your response in dealing with the Jackson-Vanik provision that 
many Members are concerned about.
    Mr. Levin. Yes. Thank you for your question. My strong 
view, and it is shared by a lot, is that the annual review 
mechanism has not been an effective instrumentality in terms of 
pressuring China in the area of human rights. I voted 
originally for a linkage proposal in the hopes that there might 
be some efficacy. In my judgment, it hasn't worked. It is a 
sporadic kind of attention to a very serious issue.
    So what is proposed in the structure that Mr. Bereuter and 
I have presented and has a lot of support among Democrats and 
increasingly among Republicans, is to have a continuing 
permanent institution on the highest level of Congress, and the 
executive whose single charge and responsibility would be to 
monitor human rights and worker rights and the rule of law 
within China; to increasingly be in contact with citizens 
within China; to increasingly use modern means of communication 
to determine what is happening; and to impact what is 
happening; and also then to make recommendations for specific 
actions to the Congress and the executive that are appropriate 
and WTO-consistent. Those actions would be placed within the 
laps--those proposed recommendations would be placed within the 
lap of the Congress and the executive for action.
    It seems to me that that focused, sharp spotlight on a 
regular basis would be a more effective instrumentality to 
accomplish what we all believe than the once-a-year, now 
perfunctory debate--and I don't mean for us participants, but 
in terms of its impact, its being reported, where it stands in 
the spectrum of our activity, it would be more effective than 
the once-a-year discussion that we have that is attended, 
unfortunately, by few of us, and that I think is reported, 
unfortunately, by very few within the media.
    Mr. Faleomavaega. Mr. Chairman, thank you.
    Chairman Gilman. Thank you, Mr. Faleomavaega.
    Just one last question to both of our panelists. Are your 
plans consistent, and if you would please be brief since our 
time is running, with the rules of the World Trade Organization 
and the U.S.-China bilateral agreement? Are they strong enough 
to keep the pressure on Beijing to improve its policies on 
human rights, on labor rights, on religious freedom and 
proliferation of weapons of mass destruction?
    Mr. Cox?
    Mr. Cox. Yes, Jackson-Vanik II is WTO-compliant. It retains 
the nontrade portions of existing Jackson-Vanik law and would 
be completely consistent with either the passage of PNTR or its 
defeat in the Congress. Second, I think it is vitally important 
at a minimum as an adjunct to what Mr. Bereuter and Mr. Levin 
are proposing, because while I agree with Mr. Levin that if the 
measure of our success is the human rights performance of the 
PRC, then nothing that we have done thus far has worked.
    I would not infer from that that getting rid of the human 
rights focus that we presently have in the Congress and the 
executive branch is a good idea. I think that there is much 
merit in the proposal that they are advancing. It would 
probably augment what presently we are doing, but keep in mind 
that if we repeal the existing Jackson-Vanik annual review, if 
we repeal the Presidential reports to Congress and the 
opportunities for Congress to debate this, that our strongest 
voices in the Congress targeted on human rights abuse in the 
PRC would be silenced. Mr. Smith would have no more 
opportunity. Ms. Pelosi would have no more opportunity. 
Chairman Gilman, you would have no more opportunity. Mr. 
Gejdenson, you would have no more opportunity to speak on these 
things unless you were one of a tiny handful of people that 
might be appointed to this commission. But the whole U.S. 
Senate and the whole House of Representatives would be on the 
bench. I don't think that is a good idea.
    Chairman Gilman. Mr. Levin?
    Mr. Levin. First, it would be consistent. Second, Mr. 
Chairman, and your colleagues, my colleagues, I don't think any 
instrumentality by itself is going to be enough. I think there 
is going to have to be a combination of pressure points, 
including a commission as we propose with its clear mandate. 
There is also going to have to be effective engagement. It is 
not going to be enough.
    For my ten days by myself in China, talking to a wide 
variety of people, I became convinced that change is hatching, 
but we have to help shape it in the right direction, and my 
feeling is that simply saying no after we have negotiated an 
agreement with the Chinese is going to undermine our ability to 
effectively broadly engage. As well as pressuring, you need 
engagement and confrontation. One or the other isn't enough, 
and it will take time, but I think that we need to inject 
ourselves actively in the processes of time. Time by itself 
won't be enough. We need to be an active force in the processes 
of change and, by the way, try to be supportive of those that 
are on the side of change in China instead of those who want to 
stonewall and keep that present state that is under state 
control.
    Chairman Gilman. I want to thank our panelists, Mr. Cox, 
Mr. Levin, for your patience for being here and for your 
support of some very important resolutions. Thank you.
    We will now move to the second panel. I would like to note 
we very much regret that we were unable to work out an 
arrangement with the Administration to testify on China PNTR 
issues today despite intensive bipartisan efforts to do so. I 
look forward to holding a future meeting of the Committee to 
ensure that the Administration will be able to provide 
testimony on this important issue.
    Our second panel today is represented by members of the 
American international business community and international 
human rights organizations. It gives me great pleasure to 
introduce Sandra Kristoff, New York Life International senior 
vice president, is responsible for international government 
affairs and represents New York Life International in the 
Washington policymaking community. Ms. Kristoff has an 
extensive background in the Federal Government spanning a 22-
year career that included serving as a special assistant to the 
President and Senior Director for Asian affairs at National 
Security Council. We welcome Ms. Kristoff.
    Our second panel today also will open with the statement of 
our good and courageous friend Wei Jingsheng, who is known to 
us from previous appearances before our Committee. Mr. Wei 
Jingsheng is a former prisoner from China who is now in exile 
and exposing through his writings the failure of the Communist 
Party to bring forth changes that would lead to democracy and 
freedom for the people of China. We look forward to hearing 
your testimony today, Mr. Wei.
    Mr. Wei Jingsheng must leave shortly for a meeting at the 
National Press Club and has agreed to join us on our second 
panel.
    We also would like to welcome Mr. Mike Jendrzejczyk, 
Executive Director of Amnesty International, as our witness on 
this panel. Mike has been with Amnesty International since the 
mid-1980's, more recently has been associated with their 
international secretariat in London. Mike has appeared before 
this Committee on prior occasions due to his well-known 
expertise on World Bank and trade policy issues, religious 
freedom and human rights in China and Asia generally. We are 
pleased that you are able to join us today.
    Mr. Wei, would you begin your statement.
    All of our witnesses, may submit their full statements for 
the record. If you would like to summarize, please do so.

 STATEMENT OF WEI JINGSHENG, FORMER PRISONER OF CONSCIENCE IN 
               CHINA, CHINESE DEMOCRACY ACTIVIST

    Mr. Wei.
    [The following testimony was delivered through an 
interpreter.] I am happy to see many people who really care 
about democracy in China, either for PNTR or against PNTR.
    I have noticed Mr. Smith mentioned the fact that America 
Government's pressure does indeed directly affect the human 
rights condition within China. Yesterday former President 
Carter mentioned that there was a change within China, but 
which kind of condition made the change in China? I think Mr. 
Carter should know very well that at the time when they formed 
the diplomatic relationship with China, and that is also a way 
my friend in the democracy war and myself got arrested in 
China. In 1994 when Mr. Clinton, who disattached the human 
rights condition from the most favored nation status, that is 
the time I was sent to jail for the second time along with many 
of my friends. Those situations tells you clearly that 
international pressure, including the ones from America, do 
have a direct effect in the human rights condition in China.
    Nowadays, the White House always emphasizes that a free 
economy in China would encourage progress of democracy in 
China. That is right, but it is only half right. We need other 
conditions to develop democracy in China.
    In China we had 2000 years of free economy, but it never 
brought democracy. After long times of thinking, we realized 
that without human rights conditions guaranteed, we cannot get 
the law of democracy in China. So if we want to promote 
democracy in China, we have got to guarantee the human rights 
conditions in China, not just for Chinese Government, but for 
all the other dictatorship governments in this world that do 
not voluntarily respect the human rights. So we must meet 
internal and external pressure, both working together to 
improve the human rights record.
    There are people who also claim that, we have been 
sanctioning China for all those years, but seems there wasn't 
too much good coming out of it. So Mr. Levin and Mr. Cox, they 
have all those proposals to increase--in Africa--to increase 
such effect.
    But while we were thinking of how could we improve it, we 
should at least guarantee what we already have with the 
capacity we already have. As a matter of fact, the annual 
review in the Congress in the United States provides extremely 
good pressure to the Chinese Government. Because of such a 
pressure, our friends within China who work for democracy and 
freedom got a little bit of tolerance from the Chinese 
Government. If we provide PNTR to China, then we lose such a 
leverage, and then we also lose the protection to those people 
who fight for China.
    This is kind of like a driver's license. It seems we always 
have everything in our pocket. It seems it doesn't really work. 
We could think of some good ways to improve those people's 
driving records, but we should not let everyone get a permanent 
driver license. Otherwise, I am afraid that driving records 
will deteriorate instead of improve.
    So while we try to improve--to have a moral means and the 
manner to improve the human rights condition in China, we 
should at least not give up the leverage and the means and the 
manners that we have to maintain the present records.
    Finally I must provide one fact. It seems we spent a lot of 
time talking about whether we should isolate China or not; but 
as a matter of fact, it is now the Chinese Government's time in 
Africa to unite with the other dictatorships and Communist 
countries in Africa to isolate the Western countries, 
especially the United States.
    As a matter of fact, the fight regarding human rights and 
democracy is not just a single fight between American 
Government and Chinese Government. It is a collective fight 
between the countries of democracy versus countries of 
dictatorship. In this regard America plays an extremely 
important role in this fight, and I hope it shall not retreat.
    Thank you.
    Chairman Gilman. Thank you, Mr. Wei.
    [The prepared statement of Mr. Wei appears in the 
appendix.]
    Chairman Gilman. Ms. Kristoff.

 STATEMENT OF SANDRA KRISTOFF, SENIOR VICE PRESIDENT, NEW YORK 
                    LIFE INTERNATIONAL, INC.

    Ms. Kristoff. Thank you, Mr. Chairman. I am here 
representing New York Life, but my perspective on this issue 
was really formed through more than 20 years as a civil servant 
in the Federal Government assigned to negotiating in the 
trenches on trade, political, military, and security issues, 
and it is that experience that leads to my assessment that the 
full range of U.S. national interests can best be served 
through the extension of PNTR to China.
    First, it is profoundly in our national security interests. 
At the core of our national security is our deep and abiding 
interest in promoting peace and stability in the Asia Pacific. 
That is why we have committed to maintain forward-deployed 
troops of about 100,000. That is why we have nurtured five core 
bilateral security treaty alliances, a host of other informal 
political and military understandings with friends in the 
region, and that is why we are building a regional security 
architecture that aims to prevent an arms race, supports rules 
on nonproliferation, and rejects the use of military force to 
resolve disputes. Every ally and friend in the region, 
including Taiwan, has said publicly and repeatedly that a 
stable U.S.-China relationship is key to regional security.
    Our approach toward China has to convince it that it is in 
its own national security interests to support a strong 
framework for regional stability. Every President for 30 years, 
every Congress for 30 years, has extended normal trade 
relations status annually precisely because it increases the 
probability of cooperation with China, the probability of a 
constructive, stable relationship, and the probability of China 
determining that it is in its own national interests to help 
develop peace and cooperation with the United States.
    The burden is on the opponents of PNTR to explain how 
denying that status will not isolate ourselves from China, will 
not remove our ability to influence Chinese decisionmakers, 
will not create the conditions for confrontation, will not 
strengthen the hands of hard-liners in Beijing, will not 
jeopardize the security of our allies and friends, will not 
weaken the nascent international rules, rules-based regimes on 
nonproliferation missile--missile technology, control of other 
dangerous technologies, and will not deal a body blow to our 
national security.
    Second, it is profoundly in our national values interest to 
extend PNTR to China. At the core of our American values is the 
belief that economic freedoms spark and nurture social and 
political freedoms. PNTR opens doors to China and expands the 
presence in China of American companies, NGO's and religious 
groups that support positive change and expanded freedom for 
the Chinese people.
    I am not suggesting WTO or PNTR is a silver bullet which is 
going to overnight transform China into a Jeffersonian 
democracy, but the past 20 years of extending normal trade 
status annually have produced great changes within Chinese 
society. Twenty years ago there was no such thing as a private 
sector in China. There was no such thing as personal freedoms. 
Today Chinese people can travel within and outside the country, 
seek education abroad, select employment opportunities, vote in 
rural elections, earn higher wages, enjoy higher living 
standards, live in less poverty. They have increased access to 
information. They can begin to rely on the rule of law that is 
becoming an increasing part of the Chinese political and legal 
system.
    That is why virtually every Chinese dissident and Tiananmen 
Square leader has spoken out in favor of PNTR. That is why 
Martin Lee in Hong Kong has spoken quite eloquently about the 
value of having China inside the rule of law system. That is 
why religious leaders like Billy Graham, Pat Robertson, the 
Christian Coalition, and NGO's like the International 
Republican Institute and the Carter Center all support PNTR for 
China as a means of advancing political and religious freedom.
    The burden is on the opponents of PNTR to demonstrate how 
isolating ourselves from China will advance political, 
religious freedom or improve the life of even one Chinese 
citizen or worker. It is their burden to demonstrate how 
rejecting PNTR would not shut down lines of communication and 
would not undermine the important role that NGO's have played 
in promoting the rule of law. It is their burden to show that 
cutting off U.S.-China trade would not push Chinese reforms 
backward in time to the days when China was isolated, markets 
were closed, and the worst abuses in human rights took place.
    Third, it is profoundly in our national economic interest. 
No one seriously argues against the merits of the U.S.-China 
WTO agreement. Occasionally people raise issues about jobs. I 
think that argument is somewhat disingenuous when one 
recognizes that we are operating practically at full 
employment, and none of the exports that China makes to this 
market are any longer produced in this country. So I would 
argue that even in the economic area, it is the burden of the 
opponents of PNTR to explain how denying this status could 
possibly enhance America's competitive advantage in the global 
economy.
    I would only wrap up by referring you to Steny Hoyer's 
recent speech, which I think was a revealing reflection of a 
personal struggle on whether to support this issue, and he 
based it on the confluence of national economic and national 
security interests and a recognition that 20 years of annual 
renewal and review of China has produced little, if any, 
evidence of improvement in human rights.
    Chairman Gilman. Thank you, Ms. Kristoff.
    [The prepared statement of Ms. Kristoff appears in the 
appendix.]
    Chairman Gilman. Mr. Jendrzejczyk.

   STATEMENT OF MIKE JENDRZEJCZYK, EXECUTIVE DIRECTOR, D.C. 
                OFFICE, HUMAN RIGHTS WATCH ASIA

    Mr. Jendrzejczjk. Thank you, Mr. Chairman. My name is Mike 
Jendrzejczyk. I am the Washington director of the Asia Division 
of Human Rights Watch. You are right, Mr. Chairman, I did work 
for Amnesty International up until 1990 when I took on this 
position for Human Rights Watch. Again, we appreciate the 
opportunity to appear before this Committee to discuss this 
very important issue.
    My organization does not take a position on trade 
agreements per se, and we don't endorse any particular 
agreement, including the one negotiated between U.S. and China 
last November. However, we do believe that the WTO process 
should be used to press for human rights improvements. We think 
that trade can be consistent with advancing human rights, but 
only if it is combined with effective and sustained pressure.
    Here I very much endorse Mr. Levin's comments that 
engagement and pressure go hand in hand. As a WTO member, China 
will commit itself to respecting global trading rules, and this 
is a step toward China's integration into the international 
system regulating not only trade relations, but also the 
government's treatment of its own citizens. Restructuring 
China's economy to fit WTO standards, I think, will give a 
boost to those within China who are arguing that it must open 
up not only economically, but also politically.
    However, I don't think you can argue credibly that WTO 
membership will in itself automatically lead to political 
change. It could be an important catalyst over the long term, 
especially in the area of legal reform. It certainly will 
increase pressures and expectations inside and outside China 
for creation of an independent legal system, which now does not 
exist, and may, in fact, be years away.
    Again, I want to stress that WTO membership will not in 
itself guarantee the rule of law, respect for worker rights or 
meaningful political reform, and, in fact, economic openness 
could be accompanied by tight restrictions on basic freedoms 
and an overall lack of government accountability. For example, 
the government might seek to build a rule of law in the 
economic sphere while simultaneously continuing to undermine 
the rule of law elsewhere.
    I was in Beijing in March with the U.N. High Commissioner 
of Human Rights, Mary Robinson, and heard the Vice Premier Qian 
Qichen lecture all of the delegates on the benefits of the rule 
of law, stressing, however, that it is up to each government to 
decide how the rule of law is to be maintained. As you know, 
China has justified locking up Falun Gong members and 
activists, saying it is simply maintaining and supporting the 
rule of law and doing this according to the law.
    But it is, I think, crucial that the Administration and 
Congress look carefully at the question of permanent normal 
trade relations and how this can be used in the context of 
China's entry into the global economic system to exert 
significant leverage on human rights. We believe that Congress 
should set meaningful and realistic human rights conditions 
that China must meet before receiving permanent NTR. We think 
the President should be required to certify these conditions 
have been met before they get PNTR, and this could happen any 
time following China's succession to the WTO.
    In my testimony I have recommended four areas where we 
think there is a realistic possibility China could make 
significant progress in exchange for getting PNTR: One, 
ratifying two important U.N. human rights treaties that China 
has signed, but yet to ratify; two, taking steps to begin 
dismantling the huge system of reeducation through labor which 
allows officials to sentence thousands of citizens to labor 
camps for up to three years every year without judicial review, 
and we could provide technical and legal assistance if the 
Chinese were to move in this direction; three, opening up Tibet 
and Xinjiang to regular, unhindered access by U.N. human rights 
and humanitarian agencies, foreign journalists and independent 
human rights monitors; and four, reviewing the sentences of 
some 2000 so-called counterrevolutionaries convicted under 
provisions of Chinese law that were repealed in March 1997.
    Getting China to meet these conditions I don't think would 
be easy, but it would require the same kind of hard-nosed 
negotiating that the Administration committed itself to get the 
trade agreement last November.
    Second, to replace the annual trade review, we would 
strongly support the creation of a new mechanism such as a 
special commission appointed jointly by Congress and the 
executive branch along the lines of Mr. Levin and Mr. 
Bereuter's proposal. I met with Mr. Levin in Seattle, in fact, 
just before the tear gas started flying, and several times with 
his staff, and we believe that this could play a very useful 
role.
    My organization has worked closely with the CSCE both 
during and after the Cold War, and we have found it an 
effective and constructive mechanism. However, I think for this 
to be effective in the case of China, more is needed beyond the 
pro forma process and the issuing of a report on an annual 
basis. I think that the legislation establishing the commission 
should require a debate in both the House and Senate and a vote 
by a certain date each year on both the findings and the 
recommendations of the commission. This would accomplish, I 
would add, what Mr. Cox is looking for. It would guarantee that 
the commission not only is engaged throughout the year, but 
every single year, instead of the trade debate, we would have a 
debate and a vote in both the House and Senate on the findings 
and recommendations of this commission.
    A second----
    Chairman Gilman. The gentleman's time has expired. Could 
you please----
    Mr. Jendrzejczjk. I will wrap up, Mr. Chairman.
    The second aspect of his proposal has to do with prison 
labor, and that, I think, would also be useful, especially if 
it entailed renegotiating the original prison labor MOU of 
1992.
    Finally, Mr. Chairman, we very much support the creation of 
a code of conduct for American companies in China. This was an 
idea first drafted as legislation in this body in 1991 and 
again in 1995. I think with the trade agreement implemented and 
China and its entry into the WTO, American businesses will have 
even greater incentive to be on the ground where I think they 
can play a positive role. We think a sense of Congress bill 
setting out a code of conduct for American companies with an 
annual report to the Secretary of State on how these principles 
are being adhered to would take at face value the claims and 
assertions by the American business community that their 
presence cannot only help liberalize China, but can also lead 
to the better treatment of Chinese workers.
    Thank you, Mr. Chairman. I look forward to your questions.
    Chairman Gilman. Thank you, Mr. Jendrzejczyk.
    [The prepared statement of Mr. Jendrzejczyk appears in the 
appendix.]
    Chairman Gilman. Now our fourth witness on this panel is 
Nicholas Giordano, speaking today on behalf of the U.S. Pork 
Producers. He is the international trade counsel for the 
National Pork Producers Council, a national association that 
represents 44 States and generates over $11 billion in sales. 
The National Pork Producers Council is the co-chair of the 
Agriculture Coalition for U.S.-China Trade, a group of over 80 
organizations that represent farmers, ranchers, food and 
agriculture companies in all 50 States.
    We welcome you here today, Mr. Giordano. You may summarize 
your statement or put the full statement in the record, 
whichever you may deem appropriate.
    Mr. Giordano. Thank you, Mr. Chairman. I will summarize my 
statement, and I do ask that the entire statement be included 
in the record.
    Chairman Gilman. Without objection, your full statement 
will be made part of the record.

STATEMENT OF NICHOLAS D. GIORDANO, INTERNATIONAL TRADE COUNSEL, 
                NATIONAL PORK PRODUCERS COUNCIL

    Mr. Giordano. As you indicated, I am with the Pork 
Producers, but I am also here wearing two hats, as the Pork 
Producers are the co-chair of the Agriculture Coalition for 
U.S.-China Trade which, as you mentioned, is comprised of over 
80 organizations really from farm to table, with all 50 States 
represented in our coalition.
    Most sectors of U.S. agriculture have suffered from very 
low prices during the past few years. Indeed, pork producers 
just came through a period with the lowest prices ever in real 
terms. As President Clinton, Secretary Glickman and many 
Members of this body have pointed out, U.S. agriculture is 
missing out on the longest period of economic growth and 
prosperity in our Nation's history.
    For U.S. agriculture, the importance of consummating this 
deal with China and getting China quickly into the WTO cannot 
be overstated. The United States Department of Agriculture 
estimates that the U.S.-China WTO accession agreement could add 
about 1.6 billion annually to U.S. agriculture exports of bulk 
commodities such as grains, oils, seeds and products, and 
cotton by the year 2005. U.S. export gains could approach two 
billion as the Chinese reduce their tariffs on high value-added 
products such as pork, poultry, beef, citrus and other fruits, 
vegetables, tree nuts, and forest and fish products. While the 
United States gains access to its growing market, China does 
not gain any greater access to the U.S. market under the WTO 
agreement, making it a win-win for American agriculture.
    As part of its WTO negotiations with the United States, 
China agreed to slash tariffs on many food and agriculture 
products. Indeed, the tariffs agreed to by China for many of 
these products are much lower than the corresponding tariffs in 
countries such as Japan and Korea. The agreement also will 
obligate China to reform its monopoly state purchasing 
agencies, eliminate scientifically unjustified sanitary and 
phytosanitary barriers, and provide strong provisions against 
unfair trade and import surges. It requires China to stop the 
subsidization of exports, which is a huge concession given the 
vociferous opposition we face from the European Union when it 
comes to the elimination of agriculture export subsidies. 
Finally, WTO membership will require China to play by the same 
rules and disciplines of the multilateral trading system as the 
United States. The United States will have recourse to WTO 
dispute settlement mechanisms should China not live up to any 
of its obligations, an avenue of recourse we currently do not 
have.
    With respect specifically to pork, the package negotiated 
by the United States with China has the potential, if fully and 
fairly implemented, to transform China into the single greatest 
export opportunity for U.S. pork producers. Currently China has 
a de facto ban on pork imports. China blocks pork imports 
through a system of high tariffs, restrictive import licensing 
and distribution practices, and complicated and arbitrary 
sanitary requirements. Under the terms of the U.S.-China WTO 
agreement, China will, upon WTO accession, phase out its 
restrictive import and distribution procedures, lower tariffs 
on pork, and cut subsidies. Under the terms of a separate 
bilateral sanitary agreement negotiated with the United States, 
the U.S.-China agriculture cooperation agreement, China agreed 
to accept pork from any USDA-approved packing plant, which 
again is a huge concession, particularly given the problems 
that we have had with the European Union on meat and poultry in 
getting them to extend equivalence to us and recognize our 
inspection system.
    According to Professor Dermot Hayes, an Iowa State 
University economist, the Chinese market, if fully opened to 
U.S. pork variety meats, these are the variety meats, the parts 
that we don't eat too much in this country, the internal 
organs, if China fully opens its market to the variety meats as 
stipulated by the agreement, this would add about $5 per head--
this isn't our number, this is an Iowa State economist--about 
$5 per head to each of the hundred million hogs we slaughter 
each year.
    Overall this agreement is comprehensive. It is enforceable, 
and it levels the playing field in our favor. In order to 
realize the benefits of this agreement, Congress must vote for 
permanent normal trade relations with China. If the United 
States fails to provide permanent normal trade status to China, 
which is not special treatment, but the same trade status that 
the U.S. provides to other WTO members, China would have a 
right to withhold the benefits of key WTO commitments from the 
United States. In such cases, the U.S. will be greatly 
disadvantaged as our trading partners enjoy the benefits of 
China's entry to the WTO while we are left on the outside 
looking in.
    Chairman Gilman. The gentleman's time has expired. Would 
you please sum up?
    Mr. Giordano. Danish pork producers, Australian beef 
producers, Canadian wheat producers, French poultry producers, 
Brazilian soybean producers and Argentine corn producers 
ironically would reap the gains from America's leadership in 
negotiating strong commercial WTO accession terms.
    Mr. Chairman, in conclusion, we won the Cold War. There is 
no Warsaw Pact. China wants to join the multilateral system 
that was largely designed by the United States. We think that 
is a good thing, and we ask that the Congress not block U.S. 
farmers and ranchers from benefiting from China's integration 
into the international system. We ask that Members of Congress 
please vote yes on PNTR for China.
    Chairman Gilman. Thank you, Mr. Giordano.
    [The prepared statement of Mr. Giordano appears in the 
appendix.]
    Chairman Gilman. I thank all the panelists.
    Mr. Wei, do you think the vote on PNTR would affect the way 
that Beijing acts toward Taiwan?
    Mr. Wei. If we talk about this issue, we should see what 
kind of danger Taiwan is facing. Chinese Government has lots 
that must happen to solve the internal problems, so they would 
use typical strategy to transform those problems into a war 
against somewhere else. It has been a very hot debate within 
the Chinese leadership regarding whether they should have the 
war against Taiwan or not. We think China--the Chinese 
Government has to be successful in making everyone extremely 
call for patriotism and have nobody to say not to attack 
Taiwan. The only meaningful way out the Chinese Government can 
say is that they claim they don't have enough money to start a 
war. On one side they say, we don't have the money, and the 
other side they say, if the war starts, our economy will 
suffer.
    The PNTR from America would virtually give them confidence 
in the trade and economy, and thus they are more likely to 
start such a war. I believe this war would not be just against 
Taiwan. It would also directly affect America.
    Chairman Gilman. Thank you, Mr. Wei.
    To the panelists, are you confident that the U.S.-China 
agreement is enforceable, and are the so-called parallel 
legislative efforts needed to improve the prospects for its 
enforcement?
    Ms. Kristoff.
    Ms. Kristoff. If I could start, Mr. Chairman, I think that 
through the agreement we have access to the WTO dispute 
settlement mechanisms for the first time with China, and we can 
hold their feet to the WTO dispute settlement fire, if you 
will. We will also be able to draw upon all the other members 
of the WTO to create a bilateral pressure, a multilateral 
pressure on China to live up to its commitments.
    I don't believe that China's record on enforcement on deals 
that it has negotiated with us in the trade area is any better 
or any worse than any other trading partner, and, frankly, if 
we trusted the Europeans on agriculture, as Nick intimated that 
we don't, or if we trusted Japan on anything on trade, we 
wouldn't need the WTO. I would expect us to have disputes with 
China, but I would expect us to be able to use what is already 
proven to be an effective system.
    Chairman Gilman. Mr. Jendrzejczyk.
    Mr. Jendrzejczyk. I would just comment in two ways, Mr. 
Gilman. One is to allude to the fact that we have bilateral and 
multilateral agreements with China, some of which are trade-
related and also have to do with human rights where their track 
record is very poor. One reason I suggested in my testimony 
that the MOU on prison labor allowing the Customs Service 
access to suspected prison labor sites negotiated in 1992, 
needs to be renegotiated, is that China continues to stonewall 
attempts by the Customs Service to conduct such investigations. 
We, in fact, made the same recommendation before this Committee 
in September 1993. According to the State Department, the most 
recent investigation allowed was in 1997. So I think, again, 
this points to the need for vigilant enforcement efforts to 
ensure that whatever agreements China makes in the context of 
WTO, there are mechanisms to verify and press for compliance.
    Chairman Gilman. Mr. Giordano.
    Mr. Giordano. I would associate myself with Ms. Kristoff's 
comments. In addition, I would say our colleagues in 
agriculture, the cattlemen, have had very difficult experience 
with the European Union on the hormone issue. I think we would 
be hard-pressed to believe that we are going to have as 
difficult a time with the Chinese in enforcing agreements.
    We don't know what the future holds. This is a fantastic 
agreement. What we do know is that the side agriculture 
agreement, which is a bilateral U.S.-China-only agreement that 
I alluded to in my statement, the Agriculture Cooperation 
Agreement, has been fully implemented, and that agreement 
covers meat and poultry, citrus and wheat, and all of the 
affected sectors are very pleased with China's implementation 
there, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Giordano.
    Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman. It's a great panel 
that you have assembled.
    Mr. Jendrzejczyk, I have some questions for you. I think 
almost all of us, if not all of us, are in accord with the 
goals and the outcome that you would like to see, whether or 
not this is the proper vehicle, or whether the WTO can 
effectively effectuate what we would like to see accomplished 
in addition to the trade side of the issue. Do you think that 
if we insisted on these things that we could force China to go 
along with our program?
    Mr. Jendrzejczyk. I want to understand what you are 
suggesting. Are you asking do I think that if Congress were to 
attach certain human rights preconditions, that China would 
meet those in order to get PNTR? Is that what you are asking?
    Mr. Ackerman. That is my question.
    Mr. Jendrzejczyk. I would answer this in two ways. One, 
Jiang Zemin, the President, has staked his political future in 
part on his relationship with the U.S.--continued access to the 
U.S. market and investment and American technology. Therefore, 
I think he has an enormous political incentive, given what he 
has invested, in getting this agreement signed to get it 
implemented. So I think, in fact, by the time a multilateral 
protocol is negotiated for WTO accession, it is possible that 
Jiang Zemin could be convinced to at least make progress on 
some of the specific areas I mentioned if it meant that he 
would get in the end what he wants most of all, which is PNTR.
    Mr. Ackerman. Do you not think that if we do not give him 
PNTR--as you have appropriately stated, he has staked his 
political future on this--that those elements within Chinese 
society, such as people in the military who would like to see 
him not have much of a political future, would use this as an 
excuse to get rid of him?
    Mr. Jendrzejczyk. There is a constant tension and struggle, 
as you know, going on within the leadership on a whole range of 
these issues. Much of the Chinese bureaucracy still isn't 
convince that the WTO membership is a good idea. I think the 
fact, however, that Zhu Rongji went home empty-handed last year 
when he came here to get an agreement did far more damage to 
those in the leadership who are trying to move toward greater 
economic openness, frankly, than anything Congress does this 
year on PNTR.
    If PNTR isn't voted on this year, I should add, I would 
favor simply continuing the renewal process for another year. I 
bet you by next year the Europeans will finish their 
negotiations, we will have a multilateral protocol, and then we 
can revisit the issue of PNTR.
    Mr. Ackerman. I would think everybody would be finished 
with theirs and have all the benefits of what we have 
negotiated with the exception of us.
    I think I know your position on the death penalty, your 
former organization and yourself personally, and I think I know 
that that is probably the same position as a great many other 
Western and westernized democracies. Do you think that if any 
of those Western democracies or China or any other country 
would say to us that we have to give up the death penalty in 
this country because they believe it is the vilest abuse of 
human rights, otherwise they won't trade with us, do you think 
we would tell them to get lost, or do you think we would get 
rid of the death penalty? I know your view, but what do you 
think we would do?
    Mr. Jendrzejczyk. I don't know what we would do. I would 
like to see pressure applied on the U.S.
    Mr. Ackerman. Do you think it is possible that if Belgium 
said to us they won't trade with us unless we give up the death 
penalty, we give up the death penalty?
    Mr. Jendrzejczyk. I don't, because despite the fact that--
--
    Mr. Ackerman. If China said to us that we had to give up 
the death penalty, would we give it up?
    Mr. Jendrzejczyk. Despite the fact that the U.S. is greatly 
out of step with democracies in Latin American, Western Europe 
and others on this issue, which is a still emerging 
international norm, there is a long-term interest that our 
European, Latin American and other allies have in trading with 
us that I think trumps their concern about the death penalty, 
strongly as they hold that concern.
    Mr. Ackerman. But if they played that card and said to us 
that it would affect our trade relationship, what would we do?
    Mr. Jendrzejczyk. I don't know. I hope we would reconsider 
the use of the death penalty, to be honest.
    Mr. Ackerman. I know you do. I share your position on that, 
but that is not the question. The question is as a practical 
matter will China change its view because we are trying to push 
them around? Will we change our view in American society and do 
away with prison labor--you do know we have that here--because 
other countries find that an abomination?
    Mr. Jendrzejczyk. I think it is much too complicated, to be 
honest, to answer in such a black and white way. There are 
growing constituencies within China for exactly the kind of 
economic and political changes that have been discussed here 
today. I think the question is how can we support, enable and 
empower those in Chinese society, even within the party, who 
want to move toward greater economic and ultimately, hopefully 
someday, political openness? That is the issue. I think, 
frankly, that is the only way to address this in an intelligent 
way.
    Mr. Ackerman. You and I have no disagreement on these 
issues, but what you are suggesting is that these vehicles 
aren't effective in changing our way because nobody is using 
them, and they are looking for other vehicles to try to 
convince us as to what their view of morality is on other 
positions. Maybe I come to a different conclusion than you do 
because I am a politician, but I would certainly get my dander 
up, and almost everybody that I talk to would get their dander 
up, if somebody insisted that we release people from prison 
that we have convicted under our system because they don't like 
our system, or because we have prisoners who are working for 17 
cents an hour and they think that is not enough, and they think 
we are executing people and that is an uncivilized thing to do. 
Even though I agree with you on the positions, that we should 
change them, I would be really peeved if some country said that 
to us, and I would think that that is the reaction of the 
Chinese.
    Mr. Jendrzejczyk. All I can say, Mr. Ackerman, is that the 
reaction of every country. When we issue, the State Department 
that is, issues its annual human rights report, no government 
likes to be criticized. When our State Department has to go up 
to the U.N. to defend--it is a natural reaction. I don't think 
there is anything that would dissipate that.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I want to thank the panel for the exceptional quality 
presentations they have made. I have found them very helpful 
and very positive.
    It occurs to me, and perhaps Mr. Wei would agree with this, 
that the great majority of the 1.2 billion people in China have 
no particular political ideology. They are not particularly 
sympathetic to communism. They would just like to go on with 
their lives in as positive a fashion as possible. Our opening 
up China to trade to a greater extent will mean that those 1.2 
billion people will benefit. The Chinese Government may 
continue to ``buy China,'' as we have pressured to ``buy 
America,'' but what we are interested in the vast number of 
people in China who have no particular political orientation. 
We hope to convince them to move toward--support moves toward 
democracy and human rights.
    I also wanted to mention, since the subject has come up, 
that the dispute settlement mechanism for the WTO is one that 
the U.S. thus far has used far more than any other country. 
With a couple of recent exceptions, we have had a very 
favorable outcome from the use of those mechanisms.
    I hope all of you do focus on the recently circulated 
proposed framework that Mr. Levin and I have distributed. The 
accession of Taiwan to WTO that Congresswoman Dunn and I have 
pushed would occur, we would hope, at the same meeting that 
China's accession to the WTO occurs. Tainwan, is our seventh or 
eighth largest trading partner. I would think, Mr. Giordano, 
that information would be particularly interesting to you to as 
well as to others representing the agriculture groups.
    Mr. Jendrzejczyk and Dr. Kristoff, you noticed perhaps that 
we do have a push for an interagency task force on the subject 
of prison-produced goods and the labor conditions related to 
prison produced goods. In section 5 of our proposal, Mr. Levin 
and I significantly attempt to increase the resources available 
in our government to promote the rule of law and to monitor 
whether or not there is agreement with the trade agreement of 
the WTO and the U.S. accession agreement. We also pushed very 
hard for additional technical assistance for the Departments of 
Commerce, of Labor, and of State, which they support, for 
additional resources for dealing with labor market standards, 
commercial law, and rule of law. We also urge that additional 
resources be allowed for those purposes through the WTO, and 
the international financial institutions. I would welcome any 
comments any of the panel members might have, and I do thank 
you for your very specific suggestions, Mr. Jendrzejczyk.
    Mr. Jendrzejczyk. Thank you, Mr. Bereuter. I would just 
quickly add we very much support the kind of technical rule of 
law programs both for reform and better enforcement of the 
Chinese labor laws as well as commercial law. As you know, Mr. 
Gejdenson had introduced separate legislation with much of the 
same impetus behind it. We have had a number of discussions, in 
fact, with the U.S. Labor Department about precisely how to go 
about doing this. As you know, the Chinese Labor Minister was 
here in March 1999, invited Alexis Herman, our Secretary of 
Labor, to visit China, which we hope she will do relatively 
soon not only to begin a dialogue on worker rights and social 
safety nets, but also to begin putting in place precisely these 
kinds of programs.
    Mr. Bereuter. You are right to give Mr. Gejdenson credit. 
Mr. Levin and I drew heavily on his legislation for some 
sections.
    Ms. Kristoff. Mr. Bereuter, I think the technical 
assistance on the development of rule and law and commercial 
labor markets in China is an excellent idea. The American 
business community has been involved in those kinds of 
technical assistance programs in the regulatory areas in China 
in the financial services area for some time, and I think it 
would be exceptionally helpful if this were a mandated program.
    I think compliance by China is going to be the critical 
next question in the WTO. We have got to monitor its 
implementation of these very time-specific and very clearly 
drafted commitments that Charlene has negotiated, and I think 
the Commerce Department and USTR are going to need additional 
resources in order to be able to do that. So anything that you 
can do to create within the interagency structure and the 
executive branch and in cooperation with the Congress, a more 
focused view or more focused scrutiny of compliance by China 
with its obligations I think we would welcome.
    Chairman Gilman. Mr. Wei?
    Mr. Wei. There are some good discussions regarding how to 
negotiate with the Chinese Government to improve the Chinese 
labor condition, et cetera. But I must remind everyone to 
negotiate, to bargain, you do not give the money to the person 
first, otherwise you lost all your possibility of negotiation. 
Every year we hold PNTR in our hands, and every year we give 
NTR. Now we have all the quality and leverage of the right 
person to negotiate, but otherwise we lose everything. Thank 
you.
    Chairman Gilman. Thank you, Mr. Wei.
    Mr. Giordano. If I could comment?
    Chairman Gilman. Mr. Giordano.
    Mr. Giordano. Thank you so much.
    Mr. Bereuter, with respect to your proposal, Mr. Levin's 
proposal, we in agriculture don't have a formal position on 
this point, but I think you will find a lot of support out 
there, and we may be moving toward a formal position. I think 
as a political matter, anything that helps us to get to 218 we 
view as very positive. I think as a policy matter, anything 
which provides more of a basis for enforcement above and beyond 
the rights we already have is also very positive.
    I also want to comment on the nontrade aspects of some of 
the things that are in your proposal and some of the other 
things that have been discussed here today. I want to 
underscore that people in American agriculture, farmers and 
ranchers, are not deaf to the concerns and to the pain that 
many feel in China. American agriculture represents mainstream 
American values. Many of our people are people of faith. There 
is great concern, but they have an underlying faith in our 
system and in free enterprise, and they believe that through 
trade and through engagement, through increasing incomes in 
China, China being integrated into the multilateral trading 
system, that there will be greater respect for human rights, 
greater respect and religious tolerance, greater environmental 
protection, all the things that we believe in. So while we 
certainly have a very parochial interest in trading with China, 
in increasing our exports there, we very much believe that it 
is in our best national interest and are very much interested 
in promoting other American values in China as well. We think 
that your legislation does that.
    Chairman Gilman. The gentleman's time has expired. Thank 
you.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Let me just ask a couple of questions. First of all to Mr. 
Wei Jingsheng; Bottom line, do you believe human rights will 
improve if PNTR is approved by Congress in the next couple of 
weeks?
    The Interpreter. If PNTR is given to China?
    Mr. Smith. Is given to China. Will human rights improve?
    Mr. Wei. I want to mention not only the human rights 
condition after the PNTR is given to China, but that the human 
rights condition will not be improved. As a matter of fact, it 
will deteriorate. The reasons are very simple. For a 
dictatorship government, they do not really want to respect 
human rights at all. They will only be forced to respond if 
there is any pressure, such as we would really like to have the 
trade conditions be granted to them so they figure out maybe 
they have to respect the human rights matter.
    Mr. Smith. Let me ask Ms. Kristoff, and perhaps Mr. 
Giordano might want to touch on this. In your view, especially 
now that we have had the MFN renewed annually under the Clinton 
Administration, has religious freedom gotten better?
    Ms. Kristoff. I would say that over the course of the 
almost now 30 years that----
    Mr. Smith. Let me take the timeframe of the linking of MFN 
with human rights under the Clinton Administration. Since then 
has it gotten better, worse or stayed the same?
    Ms. Kristoff. I think it has gotten better over both the 
last eight years and the 12 or 22 years before that, 
cumulatively. I believe that American missionaries, American 
religious leaders have spoken out in favor of continued 
engagement with China rather than to create a condition where 
they can't have access to that market. Ten years ago you 
couldn't find a Bible in China. Now they are everywhere. The 
estimates of the number of religious believers in China far 
understates the reality of the number of Buddhists, Muslims, 
Catholics, Protestants that worship in China, albeit not in 
sanctioned churches. This is vastly different than it was ten 
years ago, and I think the NGO's and the religious 
organizations that have made this happen deserve an awful lot 
of credit. I just don't think that the credit should go to the 
perceived leverage of the annual review, because, in fact, 
having given it every year for 30 years, it produces no 
reaction on the part of the Chinese.
    Mr. Giordano. Mr. Smith, let me start by commending you and 
many others in this Congress who have really carried the banner 
on human rights issues, and as I previously said, this is 
something that our producers are very concerned about. I know 
that growing up, the picture that I had of China when President 
Nixon opened the country right after the Great Leap Forward and 
the Culture Revolution was a very bleak time I think in China's 
history. What we saw on the television set were people in blue 
Mao uniforms, carrying red Mao books, riding on bicycles.
    I can tell you that in the past four years I have been to 
China four times, most recently just a couple of weeks back, 
and the country is opening up. Is there religious persecution 
there? Absolutely. I would not be credible, and I would be 
misleading you, and you know better. It is certainly something 
our producers are concerned about.
    As I said, we believe that China's integration into the 
world trading economy is something that ultimately will lead 
them to greater democracy and greater respect for human rights. 
It is a problem, and I believe--yes, I believe that the 
persecution is diminishing, and I think as we look out in time 
20 years from now, after we have a successful vote and after 
China is integrated, that we will see perhaps as much or more 
difference than we see when we look back 20, 30 years ago to 
people in those blue Mao uniforms, carrying those red books.
    Mr. Smith. Obviously I am out of time again. That is one 
thing about my Subcommittee, we usually provide almost 
unlimited time, but let me make a couple of quick concluding 
points.
    The United States Commission for International Religious 
Freedom will testify, as did their voluminous document, that 
there has been a sharp deterioration of freedom of religion in 
China during the last year. I myself visited with Bishop Su of 
Baoding, who, because he visited with a United States 
Congressman, was arrested or rearrested, having spent so many 
years in their prison camp, the Laogai. He is a full-fledged, 
bona-fide bishop with an allegiance to the Holy Father in Rome, 
and for that he was arrested and interrogated.
    I met with Wei Jingsheng when he was briefly out in the 
mid-1990's, but he was rearrested after meeting with John 
Shattuck and myself at two different times, and was quizzed and 
told that we are members of the CIA, some fanciful idea by the 
public security police.
    My point is that we are dealing with a dictatorship.
    Mr. Jendrzejczyk talked about the MOU. I was actually in a 
prison camp, Beijing prison number 1. Forty Tiananmen Square 
prisoners were there. We couldn't meet with them individually. 
They were there because they carried signs and said, we want 
democracy.
    It seems to me that it is at best premature to be giving 
permanent normal trading relationship to a government that is 
not normal in any sense of that word. We need to see some 
progress. I would respectfully submit--and I respect your 
opinions and I hope you respect mine--they are going in the 
wrong direction. The evidence from the U.S. Commission, from 
the Country Reports of Human Rights Practices and from a myriad 
of human rights organizations, including Mr. Jendrzejczyk's, 
Amnesty International and all the others, paints a voluminous, 
very incriminating picture of overlapping layers of repression.
    My good friend Mr. Ackerman talked about the death penalty. 
I am against the death penalty, but there are no due process 
rights. If Doug or I or my friend Dan Burton or any of us are 
not within the very tightly circumscribed circle of an official 
church--or are Falun Gong practioners, or Buddhists in Tibet, 
or we're Catholics aligned with Rome, or evangelical 
Protestants, you can forget it. We go to prison, we are 
interrogated. There are thousands of Falun Gong right in the 
face of this vote who are being arrested and interrogated.
    It seems to me we do have some leverage, and I respectfully 
submit that not using it makes their lives that much worse. The 
Chinese will laugh and say they can have their cake and eat it, 
too. I say that with all due respect.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Smith.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    We are on the precipice here, about to give up any chance 
at all for having any way to respond if Beijing clamps down on 
human rights, at least any way to respond as the United States. 
Obviously if we could--if the clamp-down was so solid that the 
Europeans and Japanese were ready to give up money and trade, 
that would be a truly extreme circumstance.
    Right now China has clamped down a little bit on dissenters 
and those who practice religion, but one can only imagine what 
they will do if they know that the worst that can happen to 
them from Washington is that they will get a strongly worded 
letter. Perhaps if Mr. Cox is successful, they would get a bad 
Jackson-Vanik II report.
    But they wouldn't risk either a day without MFN or what I 
would like to see this House do, and that is have a graduation 
of MFN so that we are not in a situation where every year we 
just vote yes or no, but we are able to vote for a 10, 20, or 
30 percent reduction in the MFN benefits so that if without MFN 
the tariff would be $10, and with MFN the tariff is $1, that we 
are able to vote for, in effect, a $2, $3, or $4 tariff on that 
particular item.
    A lot has been said that supporters of human rights in 
China support this agreement. To me, the most courageous of 
those in China are those who have actually spent time in the 
Chinese gulag, in prison, and the people we need to listen to 
are those who are free to speak to us, not those who are still 
subject to additional imprisonment in China.
    Mr. Wei, can you comment for those who have served time in 
Chinese prison because of their human rights activism who are 
now outside of China and free to speak their minds, what is the 
view of that group of people toward whether we should go along 
with this agreement?
    Mr. Wei. I think that the attitude from those who could 
speak freely, their attitude is quite clear. I have received 
many inputs, including the inputs from China from those people 
who have had to spend lots of years in Chinese jails, and they 
are against the PNTR.
    Also, we notice that there are a few people of a little bit 
of fame who seem to change their attitude in this regard, and I 
think they may not speak what is really in their heart. We must 
remember the pressure from the Chinese Communist is not 
necessarily just within China--they have successfully spread 
overseas. So some people's attitudes may not reflect the people 
who have had to spend years in Chinese jails. They cannot--
especially--they cannot represent on several thousands of 
people who are still spending their time in Chinese jails who 
are much less famous. Thank you.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Burton.
    Mr. Burton. We are a huge market for the Chinese, and I 
don't think they are going to jeopardize that market by 
starting to defer trade with us to some other country, because 
we are probably the biggest market they have in the world. I 
don't see anything wrong with renewing this on a yearly basis 
rather than giving them permanent trade status. Once we give 
them permanent trade status, we have no more leverage with them 
as far as trade is concerned.
    I think one of the panelists said that our national 
security depends on this, and they also said we won the Cold 
War. I remember one of the generals recently said that--when we 
were talking about Taiwan and our possible defense of Taiwan, 
they said America won't defend Taiwan. They are more concerned 
about Los Angeles than they are Taipei. That was a direct 
threat, and it was recent. Our memory seems to be so short. We 
don't remember Tiananmen Square. We don't remember hearings we 
had in this Congress just a few months ago where we found out 
they are taking prisoners into prisons, who are alive, and if 
somebody from a foreign country needs a kidney, they take them 
and they remove one of their kidneys. They immediately 
transplant it into a recipient at a makeshift hospital or close 
hospital nearby, and sometimes they kill that prisoner to take 
their heart or another organ. That goes on right now.
    They are selling organs of live prisoners. Many of these 
prisoners are political prisoners who committed no murder, 
nothing that would involve the death penalty. If you don't 
think taking someone's heart is the death penalty to give it to 
someone else who needs a new heart, then you and I don't have 
the same definition of a death penalty. That goes on today, 
right now.
    People are being put in these gulags. They are slave 
laborers right now. They are living on very meager rations. 
Millions of them are in slave labor camps making products that 
we buy. We have a multibillion-dollar trade deficit with China 
right now. I think it is about $40 to $50 billion right now.
    Mr. Sherman. Seventy.
    Mr. Burton. Seventy right now.
    But the fact of the matter is the Chinese don't want to 
lose our market. We are the biggest market in the world. So 
this argument about if we don't go along with this, they are 
going to start trading with somebody else and hold our feet to 
the fire, why would they do that? Why would they want to risk 
losing our market? Why would they want to risk some reciprocity 
if they wanted to try to stop doing business with us?
    I have a lot of agriculture in our district. I would like 
to see our farmers have access to that market. I think it would 
be great for us to get more trade with China, but not at the 
expense of people who are having their livers and their hearts 
and their lungs removed who are alive in prison camps, at the 
expense of millions of people who are starving and dying in 
gulags and making products that we are buying here today, at 
the expense of kids who died in Tiananmen Square under tanks, 
who were squashed into dog meat, and to have the Chinese just 
recently say, hey, we don't worry about you guys because you 
are more concerned about Los Angeles than Taipei?
    How about the espionage that took place just recently. The 
W-88 warhead that we couldn't even talk about because it was a 
security risk, that security risk is no longer a security risk 
because the Chinese have it. They stole it. We believe Wen Ho 
Lee. We are not sure who gave it to them, but all of your 
nuclear secrets, almost all of them have been given to the 
Chinese Communists. They can now make a mobile-launched vehicle 
they can put in a forest, they can launch it at America, and in 
orbit, when it gets into the outer atmosphere, it splits into 
ten warheads, can hit ten cities with pinpoint accuracy, and we 
have no defense for it.
    You say there is no arms buildup? They are building the 
biggest military in the history of mankind. They are buying 
more ships, more technology all the time, at the same time that 
this Administration in our country is diminishing our military 
preparedness.
    Now, let me just tell you MFN permanently right now, in my 
opinion, would be a mistake. I have no objection to doing it on 
an annual basis, but we ought to hold that carrot out there and 
say, when there is positive change, we will be more liberal 
with MFN here in America. They are not going to quit doing 
business with us as long as we are going to be a benefit to 
them, and we are right now. Once we give that up by giving them 
permanent trade status, the human rights aren't going to 
improve there. They haven't improved in Cuba, Vietnam, North 
Korea, and they aren't going to improve in China. They are 
Communists. They believe in a dictatorship and repression, and 
the only way they are going to change is from pressure, not 
from giving them everything they want.
    Chairman Gilman. Thank you, Mr. Burton.
    Do we have any--Mr. Brady, I am sorry.
    Mr. Brady. Thank you, Mr. Chairman.
    I think this is a wonderful debate Congress is having. We 
are debating the value of opening Chinese markets finally to 
American farmers, to American businesses. We are asking a 
simple economic question: Is it in America's best interests 
that American farmers, American businesses be treated as every 
other business in every other country in this world?
    My answer clearly is yes. It is in our best interest, but 
we are also asking not if we should continue pressure on China 
to improve human rights, to improve religious freedoms, to stop 
the practice to force abortion, to rein in their military 
aggressiveness; the question isn't should we be doing it, it is 
how best we can do it.
    I am convinced the answer is that it will take many 
efforts, opening markets, opening minds, opening information, 
exporting our strongest--one of our strongest freedoms. That is 
economic freedom. There is no question that it has helped.
    There is no question we need to continue pressure on China 
to improve in so many ways, and one of them at the heart of 
this issue is can we best bring about lasting change from 
within China or from without, and the question is how best to 
do it. Character is described as what you do when no one is 
looking. Human rights religious freedoms also occur when you 
change the hearts and minds of a country, and I am convinced 
that as we open markets, we help promote those freedoms.
    I am also convinced we must have strong leverage and 
pressure on China. I am frustrated because the annual debate on 
MFN is not working. It is not bringing about those changes. But 
I do know that improved trade is opening doors for our 
missionaries and for our businesses. I know that we must have 
Congress and the President engaged on a daily basis on all the 
issues we have talked about. I know that economically if we 
reject PNTR, China will continue to have one of the fastest-
growing economies in the world. They will continue to sell 
outside America. They will do business with everyone in the 
world except us. It has no impact on them. It is only 
economically that can we compete.
    I guess my question to any of the panelists today is, isn't 
it going to take all of this to bring about change in China? 
Don't we need open markets, pressure at every point, an engaged 
President, an engaged Congress in our best efforts to change 
China from within to bring about the change that we desire? I 
would open it to any of the panelists.
    Mr. Jendrzejczyk. I would just say briefly I agree change 
will come from both within and without, that we need carrot 
sticks. We need a process of engagement because it has got to 
be tough and consistent.
    I very much agree that Congress and the President need to 
be involved in a consistent manner as well. One of our 
disappointments was that at last month's annual meeting of the 
U.N. Human Rights Commission, there was an attempt by the U.S., 
which this Administration should get enormous credit for 
putting forward, but there was little other support. I think, 
to be honest, that was in part because though the President was 
heavily involved in lobbying Members of Congress on PNTR, as 
far as I know, he was not involved at all in lobbying on this 
resolution in Geneva, which, again, is only a loss of face. It 
doesn't impose sanctions.
    China, for months, has been lobbying governments all over 
the world just to keep this relatively mildly worded, innocuous 
resolution off the agenda. They won. I think that could have 
been prevented, and I know Members of Congress in this body and 
in the Senate were urging, in fact, the Administration and the 
President personally to play a much stronger role. Secretary 
Albright flew all the way to Geneva from India just to give a 
speech, for which, again, she should be given credit, as should 
Assistant Secretary Kott for his vigorous efforts; but absent 
Presidential leadership has been a consistent matter. The 
President can't just go to China in 1998, say a lot of very 
strong things about human rights in Tibet, and not follow them 
up throughout the year. I think that, in fact, undermines the 
Administration's own engagement policy.
    Ms. Kristoff. I think Mike and I have worked for a number 
of years on China issues together. I think we share your goals. 
Mike and I sometimes have disagreements on the best means to 
get to them. I am always disturbed that during this debate 
every year, there seems to be posited this choice between trade 
and values, trade and things that make us Americans as we walk 
around, and that somehow if you want to bring China into the 
international rules-based community and the WTO, that somehow 
that is a statement in favor of prison labor or human rights 
abuses.
    I don't think engaging China in a clear-eyed, pragmatic, 
coordinated way among the agencies in the executive branch and 
with the U.S. Congress, involving deeply the other elements of 
the community here, the private sector, the NGO's, the 
religious leaders, that that kind of engagement is tantamount 
to endorsing some of the worst human rights abuses that have 
occurred. I think it is a false choice, false dichotomy, to 
have to choose between trade and values. I think we can walk 
and chew gum at the same time. I think, in fact, 30 years of 
Congress granting normal trade relation status annually says 
that it believes that that can happen, too.
    What we have to do, I think, is have a continual debate on 
the best way in which to do this engagement with China, and it 
should be a public debate. It should involve the 
Administration. It should involve the Congress. It should 
involve those of us who are out here in the private sector. 
There are multiple tools available to all of us to achieve 
security goals, economic goals, values goals. We ought to use 
each and every one of those tools, but what we have found year 
in and year out, that the tool--the annual review of relations 
does not do anything. I think you have to question whether that 
lever is an effective lever or, in fact, if it is ever used and 
you yank it, it is going to break the relationship between the 
United States and China.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman, for yielding. 
I would just like to ask a followup to Ms. Kristoff.
    Is there anything that the Chinese dictatorship can do that 
would lead to your saying that we ought to cutoff MFN? I say 
that because, again, the human rights abuses in every category 
have gotten worse over the last several years ever since the 
delinking of MFN with trade, the crackdown on religious 
freedom, the use of forced abortion. Our Subcommittee has had 
numerous hearings, one of which included a woman who ran a 
family planning program in Fujian Province, Mrs. Gao, whom 
Harry Wu helped to get out of China through a whole series of 
means. When she testified, she said, ``By day I was a monster; 
by night I was a wife and mother,'' and said that the regime 
compels the family planning cadres right from the top--contrary 
to the myth that is promulgated by some in the population 
control community and UNFPA--to carry out forced abortions and 
to meet quotas.
    In the area of the Laogai, we know that the amount of 
prison-made goods is high. Mr. Jendrzejczyk talked about the 
MOU. I fault, unfortunately, George Bush and equally President 
Clinton, for accepting a piece of paper that is as porous as 
Swiss cheese. It gives China advance notice, first of all, and 
we have to prove that there is an origin. You have got to have 
compelling proof, and then the Chinese Government reserves unto 
itself the right to investigate and report back to Customs as 
to whether or not in their view there is a problem. It is like 
the fox guarding the henhouse. Then added to that, once we want 
to have access to a suspected Laogai where prison-made goods 
are being made, 60 days or so have to pass. That is like giving 
a drug pusher all kinds of weeks or months advance notice that 
the ATF or the FBI is going to do a raid. It becomes a Potemkin 
village and it is nonsensical to think we are going to find 
anything after that process has been exhausted. The MOU needs 
to be seen for the fraud that it is.
    Mr. Chairman, as Chairman of the Helsinki Commission, I 
myself proposed in the 1980's that there be a Helsinki-type 
process for Asia, and I asked the State Department to study it, 
and I have pushed it many times. Regrettably you have got to 
get the countries themselves to be signatories to that. We now 
have the International Covenant on Civil and Political Rights 
that Jiang Zemin has milked for years in terms of their 
acceding to it. It has no enforcement mechanism. That has to be 
kept right front and center at all times, but it hasn't even 
been ratified. Countries like the Sudan and many other barbaric 
regimes routinely sign international covenants where there is 
no enforcement.
    So I think we are on notice, Mr. Chairman. If there is 
going to be this overlay of a new Helsinki-type process, we at 
least have to have the countries signing and agreeing to access 
to their prisoners. You or I or any of us would love to go and 
visit. But even the International Committee for the Red Cross 
doesn't have access. I remember when that carrot was dangled in 
front of the international community when another MFN debate 
was coming up for vote, and China said, maybe we will let the 
Red Cross come up. As soon as the vote was over, they just 
ripped up that promissory note and said, there is no way they 
are coming in. We have no access to the prisoners. When I 
wanted to meet with Wei Jingsheng and others, there was no way, 
absolutely no way. As a matter of fact, people I met with who 
were out of prison were arrested afterward.
    The point I am making is: Is there anything that this 
dictatorship can do that would lead to you say, time out, 
enough is enough? We did it with Russia. We did it because we 
cherished Soviet Jews and said that because of the grotesque 
treatment of Jews in the Soviet Union; that country would not 
get the trading benefit until it allowed the Jews to leave 
pursuant to Jackson-Vanik.
    Now we have a situation where layer after layer of human 
rights abuse have piled on top of one another. The human rights 
organizations to a group, and the State Department as well, 
have said that what is really going on there says there is 
deterioration. As I mentioned before, the U.S. Commission's 
Rabbi Saperstein is a great and honorable man. The people that 
make up his board are free traders by and large. I don't know 
if all of them are, but many of them are. The collective wisdom 
that they have conveyed to the Congress is, ``Don't grant MFN 
on a permanent basis.
    My question, and I ask it with all sincerity, is: Is there 
anything they would do that would push you over the edge and 
say enough is enough? The crackdown on the Falun Gong, the 
Catholics, the Protestants? If my good friend Mr. Brady and I 
went over and met with Bible teachers that weren't part of the 
state-sanctioned church, they would be arrested. Minimally they 
would be interrogated. They probably would get a prison 
sentence.
    Chairman Gilman. The gentleman's time has expired.
    Ms.Kristoff. I think Mike gave the answer to that a couple 
of minutes ago when he said that the only way to frame this 
debate so that we have a chance to succeed is to say we would 
like to have China over a period of time embrace concepts of 
economic freedom, political freedom, global peace and security. 
What increases the likelihood and the chance that we will be 
able to push China in that direction, the direction that we 
want to evolve toward, I think, is our judgment and the 
judgment of many that bringing China into the world community, 
giving it a stake in the rules-based systems--not just on 
trade, but on human rights, on nonproliferation, et cetera, 
that that offers the best prospect of pushing China in the 
direction that we want it to go.
    To frame the debate in any other terms, in terms of the 
death penalty or terms of a particular human rights abuse in a 
particularly narrow snapshot, is really to distort what has 
happened in China over the last 20 years and to distort the 
effectiveness of tools that we have in our arsenal now to 
affect China; and to deny PNTR, frankly, is not going to keep 
China from the WTO. They will join it. It is just the benefits 
will go elsewhere, and we will be cutoff from their market.
    Chairman Gilman. Mr. Sherman.
    Mr. Sherman. Thank you for 30 seconds, Mr. Chairman.
    We get the full benefits if China joins WTO without giving 
them permanent MFN under the 1979 treaty we have with China, 
but more to the point----
    Ms. Kristoff. That is not accurate, Mr. Sherman.
    Mr. Sherman. If I could continue. I have been given 30 
seconds. If that isn't accurate, we can simply compel it by 
making it a contingent of our annual review of MFN for China. 
But more to the point, to say that the annual review has not 
protected people in China is to guess at what the future would 
be. We don't know whether there are 5,000 or 10,000 or 100,000 
people the Chinese Government would have imprisoned or killed 
if they did not risk their $70 billion trade surplus with the 
United States.
    If we go along with this agreement, there will be nothing 
the United States can do unilaterally that will cost Beijing a 
single penny, and then we will see whether they limit 
themselves to 5,000, or will it be 100,000 that they will kill? 
I don't know. But they will be able to kill and imprison all 
the way up to the level where the Europeans are unwilling to do 
business with them because they have gotten so egregious, and I 
don't want to know how large that level is.
    Let's leave it so that the United States can deprive 
Beijing of at least a few dollars, because I don't think that 
roughly worded letters are sufficient to control and to limit 
their egregious abuses of human rights.
    Chairman Gilman. Thank you, Mr. Sherman.
    I want to thank our panelists. We are about to go to the 
third panel. I thank Mr. Wei. I want to thank Ms. Kristoff, Mr. 
Jendrzejczyk, and Mr. Giordano for being patient. We really 
overextended our time, but, again, we thank you for your expert 
opinions.
    We will now proceed to the third panel, and we welcome 
Steven McFarland, who is Executive Director of the U.S. 
Commission on International Religious Freedom, a Federal 
legislative agency created by the International Freedom Act of 
1998 which is charged with the responsibility of advising the 
President, the Congress, and Secretary of State on conditions 
of international religious freedoms. Mr. McFarland has been a 
leader of a number of broad-based religious coalitions and 
helped to shepherd the Religious Freedom Restoration Act to 
passage in 1993, and the Religious Liberty Protection Act on 
which we worked here in our Congress with the leadership of Mr. 
Smith in 1999.
    We look forward to hearing your testimony today, Mr. 
McFarland.
    Our other witness today is Reverend Daniel Su. He was born 
in China and is now an ordained minister working as a special 
assistant to the president of China Outreach Ministries, an 
evangelistic Christian organization committed to reaching 
graduate students from China currently studying on U.S. 
campuses. Reverend Su is a frequent speaker among American 
Christian groups. We welcome you here today.
    Gentlemen, you may summarize your statement. Your full 
statements will be put in the record, and we welcome your 
proceeding.
    Before you do so, I would like to ask unanimous consent 
that the record be kept open for five legislative days to allow 
statements from the U.S. Chamber of Commerce in Taiwan and the 
International Brotherhood of Teamsters.
    [The information referred to appears in the appendix.]
    Chairman Gilman. I would also ask that Mr. Smith conduct 
this panel since I have to go on to another meeting.
    We thank you gentlemen for being here.

     STATEMENT OF STEVEN T. McFARLAND, EXECUTIVE DIRECTOR, 
         COMMISSION FOR INTERNATIONAL RELIGIOUS FREEDOM

    Mr. McFarland. Thank you, Mr. Chairman. It is a particular 
honor to testify before this Committee whose Chair, Ranking 
Member and so many of its Members have been leaders in 
promoting human rights as an integral part of U.S. foreign 
policy. So thank you on behalf of the U.S. Commission on 
International Religious Freedom, which, as you know, is a 
bipartisan legislative agency independently created by a 
unanimous act of this Congress in 1998 to advise the President, 
the Secretary of State and this Congress on conditions of 
international religious freedom and what the United States can 
and should do to promote it.
    Our first annual report came out, as the Chairman mentioned 
and Mr. Smith mentioned, just last week, focusing on three 
countries, of which China was one. The Commission's nine voting 
members come from both political parties and from a wide 
spectrum of religious diversity. A number of them support free 
trade. Yet the Commissioners were unanimous, unanimous, in 
their report in asking that Congress not grant PNTR to China 
until substantial improvements are made in respect for 
religious freedom.
    The Commission's reasoning is stated in its report, and let 
me provide a short excerpt. ``The Commission believes that in 
many countries, including some of China's neighbors, free trade 
has been the basis for rapid economic growth, which in turn has 
been central to the development of a more open society and 
political system. A grant of PNTR and Chinese membership in the 
World Trade Organization may, by locking China into a network 
of international obligations, help advance the rule of law 
there in the economic sector at first, but then more broadly 
over time.
    ``Nevertheless, given the sharp deterioration in freedom of 
religion in China during the last year, the Commission believes 
that an unconditional grant of PNTR at this moment may be taken 
as a signal of American indifference to religious freedom. The 
Government of China attaches great symbolic importance to steps 
such as the granting of PNTR and presents them to the Chinese 
people as proof of international acceptance and approval. A 
grant of PNTR at this juncture could be seen by Chinese people 
struggling for religious freedom as an abandonment of their 
cause at a moment of great difficulty. The Commission, 
therefore, believes that Congress should not approve PNTR for 
China until China makes substantial improvements in respect for 
religious freedom.''
    Then the Commission unanimously offered five standards for 
Congress to measure whether China is making that kind of 
substantial improvement in this fundamental human right: First, 
whether China agrees to establish high-level and ongoing 
dialogue with the U.S. Government on religious freedom matters; 
second, whether China agrees to ratify the International 
Covenant on Civil and Political Rights, which it signed in 
1998; third, whether China agrees to permit unhindered access 
to religious prisoners by the Commission; fourth, whether China 
discloses the condition and whereabouts of persons imprisoned 
for reasons of religion or belief; and finally, whether China 
releases from prison all persons incarcerated for religious 
reasons.
    Let me note that the Commission does not nominate these as 
preconditions for the granting of PNTR, but rather as standards 
or plumb lines. The Commission unanimously recommends that PNTR 
be considered only if and when China agrees to a number of 
these measures. Rather than proposing a strict formula, the 
Commissioners leave up to the Congress how much progress China 
must agree to on some or all of these five standards before 
PNTR is granted. That China should make substantial improvement 
in religious freedom before being awarded PNTR, is the 
Commission's recommendation. Whether progress is sufficiently 
substantial would be left up to the Congress.
    The Commission concluded that these are significant yet, 
frankly, doable requests to make of China. They are not pie in 
the sky. The Chinese Government tomorrow could announce that it 
intends to ratify the ICCPR, that it intends to commence high-
level talks on religious freedom, that it will invite this 
Commission to visit incarcerated religious leaders, and that it 
is going to begin a release of all religious prisoners, or at 
least start with the elderly, the ill and those who are 
children. They could announce that tomorrow. The vote of this 
Congress on PNTR would not even have to be delayed.
    What happened in China to lead the Commission to this 
unanimous recommendation? Over the last several months, the 
Commission has conducted research and held a hearing on limits 
to religious freedom in China. We heard from Mr. Wei, Harry Wu, 
a number of other experts both from the mainland as well as 
Hong Kong, as well as experts from this country. The 
Commissioners found that violation of religious freedom in 
China is egregious, it is ongoing, and it is systematic. In 
fact, conditions are worsening as the Chinese Communist Party 
and government leaders promulgate new laws and policies to 
eliminate religious activities that are beyond their direct 
control.
    What little religious freedom China enjoyed in the past is 
being constricted. Protestant house churches, the underground 
Catholic Church, Tibetan Buddhists, Uighur Muslims and Falun 
Gong practitioners are all feeling the squeeze. This past year 
we saw the continued prohibition of religious belief for large 
sectors of the population, not to mention the 60 million 
members of the party, the three million members of the army and 
the hundreds of millions of minors under 18, all of whom are 
prohibited from receiving religious education. We saw the 
increase in the number of sects that are branded ``heretical 
cults'' and, therefore, their followers are subject to 
immediate arrest without due process; the continued use of 
notorious extra judicial summary trials and the sentencing to a 
``reeducation through labor'' camps for the so-called crime 
associated with religion; and we also saw credible reports of 
torture of religious prisoners.
    In conclusion, let me reiterate the Commission's unanimous 
conclusion that an unconditional grant of PNTR at this moment 
may be taken as a signal of American indifference to religious 
freedom. A grant of PNTR at this juncture could be seen by the 
Chinese people struggling for religious freedom as an 
abandonment of their cause at a moment of great difficulty. The 
Commission, therefore, believes that Congress should not 
approve PNTR for China until China makes substantial 
improvements in respect for religious freedom.
    Mr. Chairman, Mr. Smith, on behalf of the Members of the 
U.S. Commission on International Religious Freedom, we thank 
you for the privilege of appearing before the Committee today. 
With your permission I would ask that the chapter on China in 
both the Commission's report as well as the staff memorandum 
that accompanied it be included in the hearing record with my 
testimony.
    Mr. Smith. [Presiding.] Without objection, that request 
will be honored.
    [The prepared statement of Mr. McFarland appears in the 
appendix.]
    Mr. Smith. I do want to thank you for your excellent 
testimony and your very thorough work and that of the 
Commission on behalf of religious freedom around the world. I 
read the report and staff memorandum cover to cover. It was 
very disturbing, but well-documented and very enlightening. I 
think every Member of the House and Senate and every member of 
the media should read that before they make up their minds on 
this issue and others that are similar to this. So thank you 
very much, Mr. McFarland.
    Reverend Su.

  STATEMENT OF REV. DANIEL B. SU, ASSISTANT TO THE PRESIDENT, 
                CHINA OUTREACH MINISTRIES (COM)

    Reverend Su. Thank you, Congressman Smith and other Members 
of the Committee, for giving me this opportunity to testify 
here regarding the trade status with China. As a newly 
naturalized American citizen, I think it is an honor for me, 
and service to the country as well, to participate in this 
public debate.
    When the White House called asking for my view on the issue 
two weeks ago, I commended the President for his vision to 
integrate China into the world community. Despite my honest 
disagreement with the President on many issues, I do strongly 
agree with him that granting PNTR to China is vital to the U.S. 
moral interests as well as economic and geopolitical interests. 
I believe there are compelling reasons to support China's PNTR 
and the WTO membership.
    First, as a clergyman concerned about religious freedom and 
human rights, I am particularly excited that the WTO agreement 
will initiate a dynamic process of change in China with far-
reaching consequences. It will greatly contribute to creating a 
conducive environment for promoting international norms, the 
rule of law and individual rights and freedom.
    The WTO agreement obligates China to play by the rules. In 
the process China will need to strengthen its legal 
institutions, train more legal professionals, learn to follow 
international legal procedures, and educate people about the 
concept of rights, law and international norms. This process in 
itself is a breakthrough with important philosophical 
implications for China as a nation.
    When a Chinese citizen realizes that he has certain rights 
as a businessman that government should not violate, then more 
likely he will also realize he has other rights as a human 
being. By submitting itself to the WTO's norms, the Beijing 
government is openly acknowledging the authority and legitimacy 
of international norms in a very unprecedented manner. When 
China learns to abide by the WTO rules, then it will more 
likely learn to abide by other international norms as there in 
the Universal Declaration of Human Rights.
    Second, the WTO agreement will accelerate China's economic 
reform, especially its privatization process. It will set more 
people freer from government intrusion into their lives and 
enable them to live as freer men and women. It will speed up 
the free flow of information and expose the Chinese people to 
more ideas and values which we cherish and could be potentially 
revolutionary.
    In its last annual report on human rights, the State 
Department takes note of the increase in personal freedoms in 
China. Some China trade critics are quick to argue that the 
increase in freedoms is not intended by the Beijing government, 
and it shouldn't get the credit. I cannot agree more. That 
argument proves precisely the need to do more trade with China. 
It proves the dynamics of the free market in creating personal 
freedoms, even freedoms unintended by the government.
    How can the same critics then in the name of human rights 
use the same argument against free trade with China? Why kill 
the process that is already creating freedoms for the people we 
say we care about?
    Finally, to grant PNTR to China is to strengthen the 
reformers there. Reformers in China had fought hard to commit 
Beijing to the WTO agreement. China's current reform has its 
limits and has reached a critical stage where it is confronted 
with daunting challenges such as massive unemployment and labor 
unrest. Besides, there are strong forces in China trying to 
derail the reform process. To grant PNTR to China and to bring 
it into WTO is to provide the cover and momentum the reformers 
need to jump-start their reform and to bring it to a successful 
completion. To deny China PNTR is to abandon China's reformers 
in this critical battle. To do that is to unwittingly play into 
the hands of hard-line Communists. That would be a major 
setback for China's reform, and it is bad news for America.
    Despite my arguments for granting PNTR to China, I want to 
acknowledge that PNTR is not a magic weapon that will somehow 
bring democracy to China. There are no such magic weapons, and 
it will likely take a long process for China to become 
democratic. So let us have no illusions as to what PNTR can do.
    In considering the PNTR vote, these are some good questions 
to ask. If we grant PNTR to China, does that help it get onto 
the right track toward a rule of law and improvements of human 
rights? Will the Chinese and American people be better off as a 
result? Will it help China play a more responsible role in the 
international community? I believe the answer is a resounding 
yes.
    I share the deep frustrations you feel about China's human 
rights situation. I personally have friends in China who are in 
prison today for human rights reasons. Religious people and 
political dissidents still find their basic rights limited and 
violated in various ways. With or without PNTR for China, we 
should always continue to work hard to address these concerns, 
but it is counterproductive to deny China's PNTR because of its 
human rights reasons.
    I myself feel the urge to seize every conceivable 
opportunity to send China a message. It would make me feel 
good, but what good does it do for the people in China? When we 
send a message, we need to also ask: ``At what cost?'' Is it 
worth it if it causes a major setback in China's reform 
process? Is it worth it if it costs us this strategic 
opportunity to move China in the right direction? I don't 
believe it is, especially when there are other existing 
channels to send a message to China that is not 
counterproductive. We can always create new channels to address 
our concerns.
    Which direction do we want China to go? That is what is at 
stake in this vote. There is no guarantee China will go in the 
direction we desire, but it is my conviction that granting PNTR 
to China and its WTO membership give us the best hope that 
China may become a more humane and responsible country. I am 
hopeful and my prayers are with you as you consider this very 
important vote. Thank you very much.
    Mr. Smith. Thank you very much, Reverend Su.
    [The prepared statement of Reverend Su appears in the 
appendix.]
    Mr. Smith. Let me just ask a few questions. Reverend Su, do 
you agree or disagree with the U.S. Commission's conclusion 
that there has been a ``sharp deterioration in freedom of 
religion in China during the last year?''
    Reverend Su. I believe so.
    Mr. Smith. It has gotten worse, in your view? You agree 
with that?
    Reverend Su. Yes, sir.
    Mr. Smith. You mentioned the issue of international norms. 
I am sure you are aware that the WTO agreement actually further 
isolates noncommercial human rights issues from being 
considered with regard to trade.
    Reverend Su. I am sorry, I don't understand that.
    Mr. Smith. One of the more perverse outcomes of China 
joining the WTO and the U.S. acceding to that by giving 
permanent normal trading relations is that if we were to impose 
upon imported Chinese goods some kind of tariff or some kind of 
blockage because they were gulag-made, Laogai-made goods or 
were child-labor-made goods, or produced in some other way that 
violated our social conscience under the World Trade 
Organization's protocol, China would be in a position to bring 
us to court. It would be an actionable offense in Geneva; they 
could say we have violated the spirit and the letter of WTO 
rules. The only things that are protected under the World Trade 
Organization, from my understanding--and we have had two 
hearings on this which further illuminated this--are commercial 
interests, against intellectual property rights infringements, 
for example. But if the labor force is exploited ad nauseam, by 
child labor, for example, and we said no, we put up a red flag 
or stop sign and said, ``that is not coming into the United 
States,'' they could bring us before a WTO tribunal and bring 
an action against us. That is the perverse outcome of this. So 
human rights are further isolated from trade if WTO and PNTR 
are agreed to.
    Reverend Su. I want to confess that I am not a trade expert 
in those fields, and I don't want to speculate, but I do 
understand that we do have current laws against prison labor 
and child labor products being brought into the United States. 
So I don't know how that interacts with the WTO rules 
concerning these two issues.
    Mr. Smith. Based on the best available information that I 
have seen, and we are looking into this further, that would be 
actionable on the part of the Beijing dictatorship because 
human rights aren't on the table. They are off the table now, 
and countries that unilaterally engage in that kind of 
selective ban based on means of production--and even saying we 
don't want those kind of goods coming in--could be held to 
account. That is one of the perverse outcomes, in my view, of 
the WTO ascension.
    You mentioned that some of your friends are in prison, 
which obviously is a very heavy burden. If you yourself wanted 
to visit those friends and make representation for them--and I 
don't know if you want to put their names on the record or not, 
it might be better not to--would the Chinese leadership allow 
you to do so?
    Reverend Su. I don't assume so.
    Mr. Smith. In terms of the trend line of where the 
dictatorship is going, Wei Jingsheng has mentioned previously 
that he feels that it is bad and getting worse, that the hard-
liners are in ascendancy, not the other way around. Matter of 
fact, he even points to the bombing in Belgrade when NATO 
inadvertently or unwittingly bombed the Chinese Embassy, which 
was used by Jiang Zemin as a pretext to strengthen the more 
hard-line view within his own ruling circle. I don't know if 
you agree or disagree with that--perhaps, Mr. McFarland, you 
might want to speak on this. The ship is moving in one 
direction, getting more hard-line in its foreign policy vis-a-
vis other countries, especially Taiwan--which they don't 
consider a foreign policy issue, but it is a security issue for 
sure and there is a crackdown which is as plain as the nose on 
my face against the Falun Gong, Tibetan Buddhists, and other 
religious believers. We thought it couldn't get any worse, but 
it is getting worse based on reliable evidence that we have. 
Why, when things are moving in the wrong direction in a 
systematic way, do you have any hope that just trading a little 
more with them is somehow going to bring them out of that nose-
dive?
    Reverend Su. I don't think there is cause and effect of the 
two. By cutting off trade with China, I don't think we are 
advancing any human rights concerns that we care about.
    Mr. Smith. Where do you think they would find markets for 
the $70 billion of trade deficit and the technological transfer 
that they are reaping from the United States? Where would they 
find that goody, for want of a better word, that they 
desperately want? They are not going to find it in Europe or 
Asia or anywhere else. That is why we think we have some 
leverage to say, ``Our markets are open. Just reform''.
    Reverend Su. I think it is an issue that they had to 
consider. If they lose the U.S. market, they have to gradually 
expand trade with Europe and Japan, and, of course, I don't 
think they can overcome the loss overnight. But if they 
continue to do that gradually, they will recover the loss they 
will lose because of the U.S. sanction.
    I think aside from considering what damage we can do on 
China, we need to also consider how by doing that are we 
advancing the moral concerns that we do have on the table.
    Mr. Smith. With all due respect, our point of view on that 
very simply is that if you have a dictatorship that shows total 
malevolence toward those who dissent or exercise their 
religious belief to the point that they routinely torture and 
incarcerate, that would seem to be a group we would want to 
engage in a principled way, but not by providing technological 
transfers and access to our markets. We do have leverage that, 
if unused, means they look at us and say, ``Profits trump human 
rights. All the Americans care about is profit.''
    Mr. McFarland.
    Mr. McFarland. Representative Smith, the U.S. Commission 
considered the concern that Reverend Su raised as his third 
point, what would strengthen the hand of reformers, and 
respectfully reached an opposite conclusion, that the message 
that would be sent by giving China the biggest plum they seek 
economically would be that business as usual is just fine; the 
Congress and Administration are indifferent to; that marked 
deterioration in religious freedom and human rights; so those 
hard-liners who have been ostensibly getting their way in the 
social and human rights field--their hand will be strengthened.
    The reformers will not be strengthened by giving China the 
biggest plum or the pearl that China is looking for. It would 
simply reward and send, in the Commission's opinion, all the 
wrong messages about the importance or unimportance of 
religious freedom to the American people.
    Mr. Smith. Let me yield to my friend Mr. Sherman.
    Mr. Sherman. I want to trade with China, but I think we 
need to trade from strength. Much has been talked about the 
reformers in China, but we are blurring together two groups. 
One group of reformers is in prison. They were not consulted by 
the Chinese Government as to whether to enter this deal. The 
other group of so-called reformers are the members of the 
Central Committee of the Communist Party of China, and they are 
in favor of this deal; but to call them reformers is to confuse 
the people in prison fighting for human rights with members of 
the Central Committee of the Communist Party who may believe in 
certain economic reforms.
    This deal has been put before us by China because the 
overwhelming majority of the Central Committee of the Communist 
Chinese Party is for the deal, and there is only one thing that 
I am absolutely sure applies to every member of that Central 
Committee. They are 100 percent dedicated as their primary goal 
to maintaining a total monopoly on power with the Communist 
Party.
    Mr. Chairman, I have been a politician for awhile and have 
learned something about politicians. They know their districts. 
Lots of other people like to think they know what it takes to 
be successful in politics, but a politician knows what it takes 
to stay in office or stay in power, and the overwhelming 
majority of those dedicated to the continued monopoly of power 
by the Chinese Communist Party have brought us this agreement, 
and they are counting on us to adopt it; and they are so 
confident that they are cracking down. You gentlemen have 
illustrated to us that they, just on the eve of this vote, are 
cracking down because they are counting on corporate power in 
America. They may have read too many Marxist books. They are 
counting on corporate power in America to deliver this for 
them.
    Mr. Chairman, I am a little bit embarrassed as someone who 
cared and worked for Soviet Jews. You know that I am Jewish, 
and that is my own community, and when they were imperiled by 
what was then the world's superpower-controlled market, we 
stood up to the plate and we said, yeah, trade with Russia, 
trade with the Soviet Union, fine; but human rights. Now we are 
faced with a directly analogous situation. China is now the 
other superpower. China is now the large, controlled nonmarket 
economy, and we ought to be as dedicated to the Buddhists and 
Christians and Muslims in China as we were to the Jews of the 
Soviet Union.
    Mr. Chairman, there is a linkage between human rights, the 
trade deficit, and the government's control in China over what 
goods actually get in, and I would like to illustrate that we 
are running a $70 billion trade deficit with China. That is a 
human rights harm to Americans. We have full employment, near 
full employment in this country, but we have got a lot of $6-
an-hour jobs. If we didn't have that $70 billion trade deficit 
because we could be selling $70 billion worth of goods to China 
that we are not now, those same people would be working at $20- 
and $30-an-hour jobs, and that is a big difference.
    So why is China not buying from us? China needs the very 
capital goods that the United States is expert in creating. Why 
are they not buying from us? It is because the United States 
stands up for human rights. It is because every time Nancy 
Pelosi or Chris Smith gives a speech, there is another reason 
for the Chinese Communist Party to decide to buy the French 
goods or the German goods or the Japanese goods; and if we pass 
this deal, there will be nothing we can do about it. That trade 
deficit will remain enormous. Those U.S. workers will remain at 
$6-an-hour jobs, and what will get worse? When a Taiwan vote 
comes up, when a human rights vote comes up, people in this 
House will hear from employers in their district, and they will 
whisper in my ear, Brad, we have a chance of getting a contract 
in China, and we won't get it if the Congress votes for human 
rights. Then they will go buy from someone else. We will be not 
only deprived of any dollar way, any economic way to respond to 
human rights problems in China, but we will be deprived of our 
voice as well. Or I will go back to my district, and people 
will say, you cost us a contract; why did you vote that way?
    Notice that under the present circumstance, if China were 
to dare get that blatant, they might impair their MFN status. 
Maybe we would do something in Congress for a change, but if 
instead the word gets out, unofficially, of course, only 
orally, not in writing, that continued American pressure for 
Taiwan, Tibet and human rights will mean that U.S. companies 
will be disfavored by Chinese decisionmakers, then the 
corporate pressure that has come to Congress this last couple 
of weeks to tell us to give China what it wants, otherwise they 
will lose their contracts; they will be here saying, give China 
more of what it wants. Don't vote on human rights. Don't cost 
us a contract.
    There should be no doubt that the Chinese Government in 
Beijing does not need tariffs and quotas to prevent American 
goods from getting in. First, the vast majority of importers 
are actually owned by the government, those that would buy the 
big capital goods. We are not going to sell tennis shoes to 
China. We are going to sell, if we are allowed to sell, 
telecommunications systems. Do you think you would sell a 
telecommunications system for a whole city in China without the 
approval of the Communist Party? I don't think so. But even if 
it was an independent business, would you like to be an 
independent businessman or woman and get a call from the 
Chinese Communist Party suggesting that maybe you ought to buy 
the French goods or Japanese goods because they are ticked off 
by what Chris Smith said on the Floor?
    I don't think there are many business people with the 
courage of some of the religious leaders that were in prison, 
than some of Reverend Su's friends. I don't think they are 
going to say, oh, I am going to buy the American goods anyway 
because they are 10 percent better, 10 percent less expensive.
    The Communist Party of China will continue to control which 
U.S. exports get into China and which don't. They will do it 
orally. Oral statements are not subject to World Trade 
Organization review; and so the more we speak out on human 
rights for the people of China, the more we will deprive our 
workers of the human right to get those $20- and $30-an-hour 
export jobs instead of the $6-an-hour jobs.
    We need to be in a position where we can actually do 
something, and that would be if we vote every year, and if we 
have hopefully not an all-or-nothing vote--I talked to Chris 
about this before--but instead have an opportunity to vote for 
90, 80, or 60 percent of MFN for China instead of now granting 
them 100 percent every year almost like clockwork. Just in case 
you haven't realized it, we will be voting against this deal. 
Thank you.
    Mr. Smith. Thank you very much.
    Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    First I want to thank you for all that you have done for so 
many years on behalf of human rights all throughout this year, 
and all of our efforts pale next to yours, and I want to thank 
you for your leadership.
    Let me second correct the isolationist view of my good 
colleague Mr. Sherman regarding the trade deficit. We run a 
trade deficit with China because we have one of the strongest 
economies we have ever had, and we are buying more products, 
good-quality products, good-price products from everywhere 
around this world because, in fact, our economy allows that.
    Second, we have a trade deficit specifically because China 
is blocking our goods. If we do not pass PNTR, and China enters 
WTO, they will continue to sell to America. We will continue to 
buy from them, and the only difference is our American farmers, 
our American ranchers, our American small businesses our high-
tech companies will still be blocked from markets in China. It 
will not strengthen our American interests, our economies, our 
jobs unless we open those markets to American competition and 
we can compete.
    But let me tell you what is encouraging about the sketch we 
heard from Reverend Su and Mr. McFarland is with Reverend Su 
what we know clearly, just like good-hearted Americans debating 
this issue strenuously, it is clear that dissidents in China 
and from China such as Harry Wu and Wei Jingsheng believe that 
we should not do this. Yet leading dissidents like yourself, 
Reverend Su; Wang Dang, the leader of the demonstration at 
Tiananmen Square; Wang Jen Tou, sentenced to 13 years in 
prison, believe that open trade and open access will bring 
about these reforms. It is encouraging that both Mr. McFarland 
and Reverend Su have talked about how trade can bring about a 
more open society and political system, as you did in your 
report, and that China's entrance to WTO may very well advance 
the rule of law, which has good implications. The only 
difference was what signal does this send?
    That was the honest disagreement, and my question to you, 
because I really do have a question, is whether this is not a 
multiple-question approach for America, where we can either 
trade, or keep pressure on human rights, or have Congress 
engage in religious freedoms, or ending forced abortion and 
military aggressiveness, or the President being engaged. Isn't 
the answer all of the above? Open markets with open access, 
continued higher congressional pressure for change in China, 
more engagement by the President and the Cabinet on this, more 
international consensus in making these changes within China 
rather than from outside China where results have been limited 
at best; isn't the real answer we have to do all of that to 
bring about this change? I open it to both panelists.
    Mr. McFarland. I think, Representative Brady, you have 
spoken a lot of truth on that score. I think, speaking on 
behalf of the Commission, that its opinion is that the PNTR 
would have some benefits to the promotion of human rights. 
However, we, the United States, would be squandering a profound 
opportunity to leverage some very important progress, progress 
that we haven't seen, progress that is going actually in the 
wrong direction. So the calculation that the Commission made 
was that the benefits of PNTR unconditionally at this time, 
given what we see on this issue in the last year to two years, 
are outweighed by the progress that could be extracted by 
demanding that there be some substantial progress as determined 
by the Congress in this fundamental freedom that is supposed to 
be of equal weight to our economic interests.
    Mr. Brady. Mr. McFarland, if our annual debate on this 
issue is producing deteriorating conditions, why would 
continuing that same debate reverse that?
    Mr. McFarland. I think that is an indictment of the fact 
that MFN has been rubber-stamped on a regular basis to the 
detriment of human rights, which has been sending the wrong 
message for the last number of years.
    Mr. Brady. The Congress is strongly in support of annual 
MFN. Do you see any reason that is changing?
    Mr. McFarland. Do I see any reason that Congress' opinion 
would change? I am really not the right person to ask to do 
some fortune-telling in that regard. I am sure that given the 
track record, there may very well be a good argument that there 
will be continued granting of MFN on an annual basis; but we 
know that the message we will send to the Chinese leadership is 
they never will be held accountable on an annual basis, and 
they know that we never will get to first base in Geneva, 
either. So why relinquish any leverage whatsoever when this is 
a plum they really want?
    Mr. Brady. Actually I wish we did know, because here we 
have two very good knowledgeable people with honest 
disagreements, and then people like Chairman Smith and myself 
with honest disagreements on what signal this will send. I wish 
I had a crystal ball, and it certainty would sure make this 
easier.
    Reverend Su?
    Reverend Su. First I want to say good people can disagree, 
and we all have good intention of trying to bring about the 
improvement to human rights in China. But I agree with 
Congressman Brady that it takes more than one vote. It takes 
more than one way to really accomplish the goals that we want, 
and I don't think it is right to turn our current debate into a 
referendum to say we don't know if we care for human rights in 
China. I think that is a very narrow interpretation of the 
debate. Our debate today has a lot more to do with China as a 
whole society rather than just the referendum on the human 
rights issue.
    So I would like to encourage us all to take a look at the 
whole picture. To say that our vote for PNTR is to send a 
message to Chinese people that we don't care about human 
rights, I think, is just too simplistic. I think it sends so 
many messages. I don't think any one message alone is enough to 
communicate what this vote is all about. It is a message to 
encourage the reform process in China, and I think we all agree 
the current economic reform is China is good for the Chinese 
people. So I think it is so many multiple messages being sent 
to China that it is just too simplistic to say that this means 
that we don't care about human rights in China. I think 
American people have legitimate concerns to ask about the 
economic world, because we are living in a very competitive 
world market, and I think all these concerns are legitimate.
    Even though I come from a religious background, I wouldn't 
want to define this debate as if it is all about the religious 
freedom issue, and I think we all need to take a look at the 
whole picture. I do believe that those of us who are concerned 
about losing some leverage because we are not having this 
annual debate with China in this way, I need to find good 
alternatives.
    The current debate, the annual debate on the normal trade 
relationship with China, is no longer a useful tool at all. I 
had hoped for it to become a useful tool, but it is not 
effective anymore. Just like if I am driving a car, and it is 
always causing me problems. Instead of fixing it and spending 
thousands of dollars, why not invest in getting a better car? I 
think this is what we are facing, too. Instead of trying to 
beat up this bill into something else, why not us invest in 
creating something good, effective and productive to accomplish 
the human rights goals that we want.
    The PNTR is mostly a trade issue. It is designed as a trade 
bill. To try to beat it up, reshape it to turn it into a human 
rights weapon, it is just at best awkward. It is just like you 
cannot shape a baseball bat into a fishing pole. It is just 
like--you cannot go fishing with a baseball bat. So this is 
what I am saying. We are right in having concerns about human 
rights, but let us find effective channels that do not have the 
counterproductive effects on the Chinese people, on the 
American people, on the American economy, and let's find a good 
tool to do the things that we all agree that we want to 
accomplish.
    I don't understand why we need to disagree over this issue. 
It is far bigger, far broader than one single issue, and I 
think some--I guess some viewers may be wondering why we are 
debating about this, making a very complicated issue into a 
single issue.
    Mr. Brady. Reverend and Mr. McFarland, I want to thank you 
both for your informed views because they are very helpful, 
and, we cannot give up on this issue, on human rights. We are 
going to have to find and create better, more concerted 
efforts, and we are going to be leaning on leaders like 
yourself to help shape those as well. So thank you.
    Mr. Smith. Let me make one final comment and ask one very 
short question. I think human rights is not some single issue. 
How well or poorly a country treats its own people is obviously 
a measure of its fairness, humanity, and generosity. But labor 
rights certainly have an absolute connection to trade. I don't 
think it could be argued in any way, shape, or form that this 
is somehow unconnected since labor produces the goods that are 
eventually shipped or exported. There are no labor rights in 
China. If you or I wanted to establish a free trade union, we 
would be on the quick road to prison and we would be punished 
severely for it.
    Let me also say that WTO ironically does punish for 
violations of certain types of rights, but only commercial 
rights, intellectual property rights, and a host of other 
similar rights. If a country violates those rights--pirates 
CD's or video cassettes--the full weight of the WTO will come 
down against them. Why is that? I find it hard to justify that 
it is OK for a country to bring an action because intellectual 
property rights have been violated, but not when the work force 
that produces those items have no rights. The individuals 
should matter more than pirated disks.
    That is a major flaw, in my view and perhaps others, with 
regard to the WTO. Human rights aren't even a side-bar. They 
are nowhere to be found when it comes to trade or commerce 
between nations. It would seem to me that there should be some 
connection--otherwise just roll back the clock. Why not deal 
with the Nazis? You might encourage them coming out of the 
debacle of World War I to be more productive and more this and 
more that, but we all know that they had very despotic 
tendencies, and Hitler did terrible things to his people, 
especially the Jews.
    We now have a record that is indisputable that the 
repression is getting worse, and that is why I find it so 
incredible that when we have at least one small opportunity to 
admonish a dictatorship that it won't be business as usual, 
that we don't grab it and say, we are not going to give a 
permanent NTR, we are going to have an annual review.
    Let me also just make the point--and perhaps, Mr. 
McFarland, you might want to answer this, I think you would be 
the right person--the Commission suggested that it would be 
very helpful for the Congress to invite His Holiness the Dalai 
Lama to speak to a joint session of Congress, which I fully 
support. How did that come to be, and what are your thoughts on 
that?
    Mr. McFarland. He is perhaps the world's greatest single 
figure in personifying both religious freedom and passivism in 
pursuit of human rights and a Nobel Peace Laureate. So it was 
the Commission's opinion that while Beijing might not 
appreciate the invitation, that this individual should address 
a joint session of Congress. It would send the right message to 
the Chinese people that, first, the atrocities going on in 
Tibet by the Chinese Government are not forgotten; second that 
it is worth Congress's time to hear from a person of his 
stature, knowing that his message will be that business as 
usual is not acceptable. I think it would send all the right 
messages--the Commission believes it would send all the right 
messages to both Beijing as well as the displaced government of 
Tibet to invite His Holiness to address the Congress.
    ReverendSu. May I have some comments on some good issues 
you brought up? On the issue of labor rights--and I agree with 
you that the Chinese workers today cannot set up their trade 
union overnight, but that is not the issue we are concerned. We 
are concerned about the long-term improvements of human rights 
situations there, and I don't know whether you get a chance to 
talk with the average Chinese workers in China. I am from the 
city of Xiamen. I have talked with people who work with 
different international investment, work for Hong Kong 
investment company, companies set up by Americans, Japanese, 
those from Taiwan and other European countries, and they all 
told me the same conclusion, that workers working for American 
companies are better treated than workers working for any other 
companies run by any other countries.
    So I don't think it is right for some people to say the 
labor--the slave labor situation in China, and I think the way 
to improve the labor situation in China is to bring in the 
highest standards that American companies are practicing. The 
Chinese people are smart. They can see the difference, and that 
puts a lot of pressure on other companies to come up with 
competitive labor standard measures, and I think that is a very 
productive way to promote the improvements in the labor--in 
companies for workers where you introduce the high standards 
and create contrasts so that those companies that have lousy 
standards may really come up with something to compete with the 
high standards in the American companies.
    When I visited China, people told me the same thing, either 
in my home town in Beijing or elsewhere, and I don't think by 
withdrawing American company we're going to help the labor 
situation in China.
    Mr. Smith. Can I just offer one response? There is no doubt 
the Chinese dictatorship has taken the measure of Congress. 
They can count votes, and can count on an Administration that 
has been ready to give them MFN without strings. Matter of 
fact, I went over to Beijing midway through the time when the 
linkage was in effect, when they were on probation. Virtually 
every Chinese leader I met with said, ``We are getting MFN. 
This Administration will just give it to us.'' There will be no 
strings at the end of that so-called review period.'' I didn't 
meet a single Chinese leader who suggested anything other than 
that profits would trump everything else.
    I say that because we haven't really had a test to see 
whether or not the economic leverage will work. We need 290 
votes in the House and 67 votes in the Senate, a super 
majority, to overcome a Presidential veto when it comes to MFN 
renewal on an annual basis. Those votes are nowhere to be had. 
They are not even close.
    So we are in a different situation this year with permanent 
MFN where one chamber, Senate or House, can stop this from 
going forward, so this really is a real test. In the past it 
has been a bogus test, and, again, the only time we came even 
close to having what we thought was going to be a victory on 
this post-Tiananmen Square was when the President was saying 
all the right things, such as that he was for getting rid of 
MFN. The House and Senate were poised to do just that, and in 
came his Executive Order which rendered that moot.
    So the Chinese Government may be a horrific dictatorship, 
but they are not stupid. They have known ever since then, we 
never had the two-thirds requisite number of votes to overcome 
a Presidential veto, which we would have gotten had we passed 
in both houses a denial of the MFN. So this has not been 
tested.
    Hopefully PNTR gives us a new first-time test as to whether 
or not we really mean business, and that is why this is such an 
important vote. Again, even the annual MFN, they will get it. 
We can't stop that. It will be renewed for another year under 
this Administration, which unfortunately caved seven years ago.
    Reverend Su. I have to say I don't think this is a test to 
see whether or not we care about human rights situation in 
China.
    Mr. Smith. Could I ask you one thing? I am sorry for 
interrupting you, but if my family and extended family and 
Kevin Brady's and yours were all being tortured today, would we 
want MFN again? That is the everyday experience of many within 
the PRC, the Country Reports make it very clear. Amnesty this 
week has called for an end to torture in China, made a broad-
based appeal to the dictatorship in Beijing. Would we still 
say, yeah, let's just trade; maybe someday my kids and my wife 
and Kevin's and yours will all be let out of prison.
    There is an urgency that is lacking. If we wait a decade or 
two and say, ``Over time this will evolve'', those who are 
being tortured will have lost their lives, and there are 
thousands of political prisoners and religious prisoners being 
tortured.
    Reverend Su. I would agree with you about the urgency. I 
feel the PNTR is not an effective channel to promote those 
concerns that we are discussing now, and we need to move on and 
create new and effective channels to deal with the concerns 
that we are talking about.
    If you are talking about those suffering for human rights 
violation, religious freedom in China, in fact I talked to many 
people in prison in China for their religious faith. They don't 
want their persecution to become an issue in American politics. 
They don't want to become the political football between the 
two countries. It is not good for them. It is not good for the 
church in China. Christians in China live in China, not in the 
U.S., and I think we need to be more sensitive in suggesting 
that they are for removing the trade with China, and I don't 
think that is an accurate view of a lot of people that are 
suffering for religious persecution.
    Mr. Smith. Regrettably Wei Jingsheng is not here to rebut 
that, but at our hearing he testified and said precisely the 
opposite, that it is only when there is a realistic threat, a 
credible threat, that they stand to lose something, and that 
there is a significant economic benefit at risk, that the bully 
boys in the prisons and working right up to the top will 
ameliorate some of their brutality to the prisoners. When it is 
business as usual, they have a free hand, he testified, to do 
as they will with impunity, and prisoners are told, ``You are 
forgotten''. So we have a difference of agreement on that.
    Mr. McFarland. Mr. Wei so testified in Los Angeles on March 
15 before the U.S. Commission, as did Harry Wu, and they were 
quite clear, ``read our lips'' an answer on PNTR; this will not 
work to the benefit of the religious adherents that are in 
prison or even to those who would perhaps suffer worse. They 
believe in Mr. Wu's opinion and Mr. Wei's opinion that it is 
worth the cost. So it is certainly at best a mixed question, 
and there is no unanimity on that.
    Reverend Su. I want to say I respect the views of Wei 
Jingsheng. My wife and I prayed for him many times when he was 
in jail and even after he was released. But I have to say I 
don't think it is accurate to say all Chinese political 
dissidents are for the rejection of the PNTR vote. There are a 
lot of good people speaking out of their own conviction rather 
than under the pressure of Beijing government, as some 
suggested. They truly believe in their hearts that granting 
PNTR to China is good for the cause of human rights and 
democracy in China.
    Another very respected human rights leader stayed in prison 
for many years as well. She shared our view that granting PNTR 
to China is better for the human rights situation in China.
    So I think good people can disagree over this issue rather 
than say Chinese political dissidents all agree that to call 
off trade with China is the best.
    Mr. Smith. With all due respect, I didn't say that, and I 
don't think anybody has ever said that.
    Reverend Su. Another quote by Dai Quing, a Chinese 
environmentalist and also a political human rights activist; he 
was also in prison in China, and he said this: ``I believe that 
permanent normal trade status with its implication of openness 
and fairness is among the most powerful means of promoting 
freedom in China''. I respect that view as well.
    Mr. Smith. Let me thank our third panel, our two very 
distinguished witnesses, for their testimony and your patience. 
This has been a very long day, but very, very enlightening and 
helpful. The hearing is adjourned.
    [Whereupon, at 2:16 p.m., the Committee was adjourned.]
      
=======================================================================



 
                            A P P E N D I X

                              May 10, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T6818.001
    
    [GRAPHIC] [TIFF OMITTED] T6818.002
    
    [GRAPHIC] [TIFF OMITTED] T6818.003
    
    [GRAPHIC] [TIFF OMITTED] T6818.004
    
    [GRAPHIC] [TIFF OMITTED] T6818.005
    
    [GRAPHIC] [TIFF OMITTED] T6818.006
    
    [GRAPHIC] [TIFF OMITTED] T6818.007
    
    [GRAPHIC] [TIFF OMITTED] T6818.008
    
    [GRAPHIC] [TIFF OMITTED] T6818.009
    
    [GRAPHIC] [TIFF OMITTED] T6818.010
    
    [GRAPHIC] [TIFF OMITTED] T6818.011
    
    [GRAPHIC] [TIFF OMITTED] T6818.012
    
    [GRAPHIC] [TIFF OMITTED] T6818.013
    
    [GRAPHIC] [TIFF OMITTED] T6818.014
    
    [GRAPHIC] [TIFF OMITTED] T6818.015
    
    [GRAPHIC] [TIFF OMITTED] T6818.016
    
    [GRAPHIC] [TIFF OMITTED] T6818.017
    
    [GRAPHIC] [TIFF OMITTED] T6818.018
    
    [GRAPHIC] [TIFF OMITTED] T6818.019
    
    [GRAPHIC] [TIFF OMITTED] T6818.020
    
    [GRAPHIC] [TIFF OMITTED] T6818.021
    
    [GRAPHIC] [TIFF OMITTED] T6818.022
    
    [GRAPHIC] [TIFF OMITTED] T6818.023
    
    [GRAPHIC] [TIFF OMITTED] T6818.024
    
    [GRAPHIC] [TIFF OMITTED] T6818.025
    
    [GRAPHIC] [TIFF OMITTED] T6818.026
    
    [GRAPHIC] [TIFF OMITTED] T6818.027
    
    [GRAPHIC] [TIFF OMITTED] T6818.028
    
    [GRAPHIC] [TIFF OMITTED] T6818.029
    
    [GRAPHIC] [TIFF OMITTED] T6818.030
    
    [GRAPHIC] [TIFF OMITTED] T6818.031
    
    [GRAPHIC] [TIFF OMITTED] T6818.032
    
    [GRAPHIC] [TIFF OMITTED] T6818.033
    
    [GRAPHIC] [TIFF OMITTED] T6818.034
    
    [GRAPHIC] [TIFF OMITTED] T6818.035
    
    [GRAPHIC] [TIFF OMITTED] T6818.036
    
    [GRAPHIC] [TIFF OMITTED] T6818.037
    
    [GRAPHIC] [TIFF OMITTED] T6818.038
    
    [GRAPHIC] [TIFF OMITTED] T6818.039
    
    [GRAPHIC] [TIFF OMITTED] T6818.040
    
    [GRAPHIC] [TIFF OMITTED] T6818.041
    
    [GRAPHIC] [TIFF OMITTED] T6818.042
    
    [GRAPHIC] [TIFF OMITTED] T6818.043
    
    [GRAPHIC] [TIFF OMITTED] T6818.044
    
    [GRAPHIC] [TIFF OMITTED] T6818.045
    
    [GRAPHIC] [TIFF OMITTED] T6818.046
    
    [GRAPHIC] [TIFF OMITTED] T6818.047
    
    [GRAPHIC] [TIFF OMITTED] T6818.048
    
    [GRAPHIC] [TIFF OMITTED] T6818.049
    
    [GRAPHIC] [TIFF OMITTED] T6818.050
    
    [GRAPHIC] [TIFF OMITTED] T6818.051
    
    [GRAPHIC] [TIFF OMITTED] T6818.052
    
    [GRAPHIC] [TIFF OMITTED] T6818.053
    
    [GRAPHIC] [TIFF OMITTED] T6818.054
    

</pre></body></html>
